                                                                                Semiannual Report to the Congress




              INSPECTOR GENERAL ACT REPORTING REQUIREMENTS
The table below cross-references the specific pages in this semiannual report to the reporting
requirements prescribed by the Inspector General Act of 1978 (Public Law 95-452), as amended.

      IG Act
                                             Reporting Requirements                                         Page
    References
   Section 4(a)(2)    “review existing and proposed legislation and regulation…make                         29-30
                      recommendations... ”
   Section 5(a)(1)    “description of significant problems, abuses, and deficiencies... ”                    1-26
   Section 5(a)(2)    “description of recommendations for corrective action…with respect to                 17-26
                      significant problems, abuses, and deficiencies... ”
   Section 5(a)(3)    “identification of each significant recommendation described in previous              26-27
                      semiannual reports on which corrective action has not been completed... ”
   Section 5(a)(4)    “a summary of matters referred to prosecutive authorities and the prosecution          1-8
                      and convictions which have resulted... ”
   Section 5(a)(5)    “a summary of each report made to the [Secretary of Defense] under section             N/A
                      6(b)(2)... ” (instances where information requested was refused or not
                      provided)
   Section 5(a)(6)    “a listing, subdivided according to subject matter, of each audit report             31-41, 42
                      issued...” showing dollar value of questioned costs and recommendations that
                      funds be put to better use.
   Section 5(a)(7)    “a summary of each particularly significant report... ”                               17-26
   Section 5(a)(8)    “statistical tables showing the total number of audit reports and the total dollar    44, 45
                      value of questioned costs... ”
   Section 5(a)(9)    “statistical tables showing the total number of audit reports and the dollar            43
                      value of recommendations that funds be put to better use by management... ”
   Section 5(a)(10)   “a summary of each audit report issued before the commencement of the                   43
                      reporting period for which no management decision has been made by the end
                      of reporting period... ”
   Section 5(a)(11)   “a description and explanation of the reasons for any significant revised              N/A
                      management decision... ”
   Section 5(a)(12)   “information concerning any significant management decision with which the             N/A
                      Inspector General is in disagreement... ”
   Section 5(a)(13)   “information described under Section 804 [sic] of the Federal Financial                N/A
                      Management Improvement Act of 1996... ” (instances and reasons when an
                      agency has not met target dates established in a remediation plan)
   Section 8(f)(1)    “information concerning the number and types of contract audits... ”                    44
                                    Semiannual Report to the Congress




This page left blank intentially.
                                                                       Semiannual Report to the Congress


                                           FOREWORD

        In testifying before Congress earlier this year, Secretary of Defense Donald Rumsfeld
noted the common challenge faced by the Department and the Congress “to support the troops and
to make sure they have what they will need to defend the nation in the years ahead.” The Secretary
told Congress, “We are working to do that in a number of ways:

       •   By giving them the tools they need to win the global war on terror;

       •   By transforming for the 21st century, so they will have the training and tools they need to
           prevail in the next wars our nation may have to fight—wars which could be notably
           different from today’s challenges;

       •   And by working to ensure that we manage the force properly—so we can continue to
           attract and retain the best and brightest, and sustain the quality of the all-volunteer force.”1

       The Office of the Inspector General is committed to assisting the Department and the
Congress in meeting this challenge. Our recent efforts in support of the Global War on Terror and
to improve the programs and operations of the Department include:

       •   IG Support to the Global War on Terror:

           In direct support to all aspects of the Global War on Terror (GWOT), this office has
           provided approximately $3.6 million worth of audit, inspection, and investigative services
           in the 2nd quarter of FY 2004.

           Currently, the Office of the Inspector General has 125 staff members providing support to
           the Coalition Provisional Authority (CPA) and the CPA Inspector General pursuant to the
           ‘‘Emergency Supplemental Appropriations Act for Defense and for the Reconstruction of
           Iraq and Afghanistan, 2004’’ (Public Law 108-106) which requires that that the CPA IG
           “shall coordinate with, and receive the cooperation of, the Inspector General of the
           Department of Defense.” The DoD IG also has a statutory duty under Section (4)(c) of the
           Inspector General Act of 1978 requiring that: “In carrying out the duties and
           responsibilities established under this Act, each Inspector General shall give particular
           regard to the activities of the Comptroller General of the United States with a view toward
           avoiding duplication and insuring effective coordination and cooperation.” In that regard,
           in addition to our audit work on the Office of Reconstruction and Humanitarian Assistance
           (the predecessor to the CPA), this office has continued to monitor and coordinate with the
           General Accounting Office, the Defense Contract Audit Agency, the Army Audit Agency,
           the Agency for International Development, and the Department of State Office of the

   1. Prepared Testimony of Secretary of Defense Donald H. Rumsfeld, for the Senate and House Armed Ser-
      vices Committees, Wednesday, February 4, 2004
      <http://www.defenselink.mil/speeches/2004/sp20040204-secdef0922.html>
                                                                   Semiannual Report to the Congress


           Inspector General on the on-going and planned audit work for Operation Enduring
           Freedom, Operation Iraqi Freedom, and Operation Noble Eagle.

       •   Public Confidence in Integrity of DoD Programs and Operations:

           We initiated an audit of the Air Force Boeing 767 tanker program, focusing on acquisition
           and contract management issues, in response to the following request from the Deputy
           Secretary of Defense: “In light of recent revelations by The Boeing Company concerning
           improprieties by two of the company’s executives, please determine whether there is any
           compelling reason why the Department of the Air Force should not proceed with its Tanker
           Lease Program.” In our March 29, 2004, report, we reported that the short answer to the
           Deputy's questions was "no"; however, we recommended that the Department not proceed
           until it resolves five statutory requirements and related issues. As a result of a parallel
           investigation by the investigative component of this office, one of the aforementioned
           Boeing executives subsequently plead guilty to criminal conspiracy in federal district
           court.

           By memorandum dated January 30, 2004, the Deputy Secretary established a DoD "zero
           tolerance" policy on trafficking in persons, following our assessments of DoD efforts to
           combat trafficking in Korea and the Balkans. The DoD policy has since become the model
           for the draft of a NATO policy document currently in staffing. We continue to monitor
           DoD activities in this area as part of ongoing inspection efforts.

        In addition to support for the Global War on Terror, this office is also committing
substantial resources to assist Department initiatives to improve financial management and to
support the Base Realignment and Closure process. The significant growth and complexity of DoD
business operations, human capital requirements, and information technology infrastructure have
resulted in an increase in Departmental and congressional requirements placed on the Office of
Inspector General without a commensurate increase in funding or personnel resources.
Semiannual Report to the Congress                                                                                       Table of Contents


                                                 TABLE OF CONTENTS

                                                                                                                                           Page
SIGNIFICANT ACTIVITIES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
   Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
   Criminal Investigations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
   Directorate for Military Reprisal Investigations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
   Directorate for Civilian Reprisal Investigations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
   Senior Official Inquiries . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
   Inspections and Policy. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
   Auditing. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
   Significant Open Recommendations. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26
   Intelligence . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27
   Comments on Legislation/Testimony . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29

APPENDICES
  A. Reports Issued by Central DoD Internal Audit Organizations . . . . . . . . . . . . . . . . . . . 31
  B. OIG DoD Audit Reports Issued Containing Quantifiable Potential
         Monetary Benefits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 42
  C. Followup Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 43
  D. Contract Audit Reports Issued . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 44
  E. Status of Action on Significant Post-Award Contract Audits . . . . . . . . . . . . . . . . . . . . 45

FIGURES
   1. Judicial and Administrative Actions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
   2. DoD Total Senior Official Cases - FY 00 - FY 04. . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
   3. Nature of Substantiated Allegations Against Senior Officials
          During 1st Half FY 04 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
   4. Intelligence-Related Reports . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28
Semiannual Report to the Congress                                       Table of Contents




                                    This page left blank intentially.
                                                             Semiannual Report to the Congress




SIGNIFICANT ACTIVITIES

INTRODUCTION          This report summarizes the significant activities of the Office of the
                      Inspector General of th e Department of Defense (OIG DoD)
                      components and their work with other members of the DoD oversight
                      and Federal law enforcement communities.

CRIMINAL              The four Defense Criminal Investigative Organizations (DCIOs)
INVESTIGATIONS        continue to combat crimes affecting the Department of Defense (DoD).
                      The Defense Criminal Investigative Service (DCIS), a component of the
                      OIG DoD, focuses its investigative priorities on terrorism, technology
                      protection, product substitution, computer crime, financial crime, public
                      corruption, and major thefts. The U.S. Army Criminal Investigation
                      Command (USACIDC), the Naval Criminal Investigative Service
                      (NCIS), and the Air Force Office of Special Investigations (AFOSI) also
                      investigate procurement fraud, but their primary mission focus is
                      terrorism, force protection, general crimes under the Uniform Code of
                      Military Justice, and crimes affecting major weapons systems within
                      their respective Military Departments. The AFOSI and NCIS also
                      conduct counterintelligence investigations and operations. The DCIOs
                      support anti-terrorism investigations and participate as members of Joint
                      Terrorism Task Forces. Additionally, they work cooperatively to
                      investigate cases involving more than one service.

                      Monetary recoveries and fines related to all criminal investigations
                      throughout the DoD totaled more than $52.6 million. Figure 1 (page 2)
                      displays other statistical results achieved by the investigative
                      organizations during this semiannual reporting period. The following are
                      examples of significant cases.

Support in Baghdad,   Defense Criminal Investigative Service Special Agents continue to work
Iraq                  effectively with the Coalition Provisional Authority (CPA) in Baghdad,
                      Iraq. A rotating team of three DCIS Special Agents, working within
                      Baghdad, coordinated investigative matters relating to allegations of
                      bribery, contract irregularities, counterfeiting, embezzlement, and the
                      sale and smuggling of illegal weapons and explosive devices.
                      Investigations were conducted primarily in the Green Zone established
                      by the CPA, and surrounding areas of Baghdad, working in coordination
                      with the U.S. Army Military Police and the newly established Iraqi
                      National Police. DCIS Special Agents also work closely with the
                      Military Criminal Investigative Organizations, the Federal Bureau of




                                          1
Semiannual Report to the Congress




                                 Investigation, and the Bureau of Immigration and Customs Enforcement
                                 in Iraq.

                                 DCIS Special Agents developed and utilized CPA and Iraqi sources to
                                 obtain valuable information for its activities in Iraq. This information
                                 furthered DCIS inquiries and, when appropriate, was coordinated with
                                 other law enforcement and intelligence organizations. As an example,
                                 working with the Military Police, Iraqi police, and CPA Ministry of
                                 Finance, DCIS Special Agents broke up an Iraqi dinar counterfeiting
                                 operation, seizing counterfeit currency worth more than 100 billion
                                 dinars ($50 million) and printing presses, and assisted in the arrest of an
                                 Iraqi national. The investigation exemplified the close cooperation
                                 among the many U.S. and Iraqi agencies and the prevention of criminal
                                 activity that could seriously affect CPA’s progress and the Iraqi
                                 economy. DCIS continues to adapt to the changing safety and security
                                 landscape in Iraq while providing invaluable service—supporting CPA
                                 officials—and—protecting America’s Warfighters.




                              Ju d icia l a nd A d m in is tra tive A ctio n s

                                         C o n v ic tio n s   In d ic tm e n ts   D e b a rm e n ts   S u s pe n s io n s

               T e rro rism                     9                   10

             P ro c u rem e n t/                                                         81                  22
                                               76                   43
             H e a lth C a re F ra u d

               O th e r                       245                 143


               T o ta l                       330                 196




                                                              Figure 1




                                                              2
                                                                   Semiannual Report to the Congress




Terrorism             DCIS Special Agents teamed with the Joint Terrorism Task Forces
                      (JTTF) continue their efforts against terrorism throughout the United
                      States. In addition to the traditional work of ensuring that our
                      warfighters have the best and safest equipment to accomplish their
                      mission, DCIS Special Agents work with Federal, state, and local law
                      en fo r cem en t a ge nc ie s, t h e Mi l it ar y Cri m i n al I n v est i g at i v e
                      Organizations, and the intelligence units that comprise the JTTFs, to
                      ensure that information is shared, investigations are completed, and that
                      the investigations are both thorough and timely.

                            •    In Seattle, Washington, an individual pled guilty and was
                                 sentenced to 24 months incarceration, 3 years supervised
                                 probation, and a $100 fine for conspiring to violate the
                                 I n t er n ati o n al E m erg en cy E co n o m ic Po we r s A ct . T h e
                                 investigation disclosed his ties to the Taliban, specifically, that he
                                 had provided cash, computers, and recruitment assistance to the
                                 Taliban-controlled territory of Afghanistan.

Technology Transfer         •    The Chinese-American owner of a Virginia company was
                                 sentenced to 7 months incarceration, 8 months community
                                 detention, fined $2,500, required to forfeit $505,000 in proceeds
                                 from illegal exports, and ordered to pay an additional $88,000 in
                                 taxes after pleading guilty to charges of Unlawful Export of
                                 Commerce Control List items and Tax Fraud. The investigation
                                 disclosed that the firm conspired to and illegally exported
                                 hardened microprocessors with military application to the
                                 People’s Republic of China. The subject’s spouse also pled guilty
                                 to delivery of a false tax return.

                            •    The Chinese-American owner of a California company was
                                 sentenced to 30 months incarceration, 3 years supervised release,
                                 and fined $6,000 for violations of the Arms Export Control Act.
                                 An investigation determined that the owner attempted to illegally
                                 export Munitions List items from the business to the People’s
                                 Republic of China. The items included bomb ordnance, missiles,
                                 rockets and launchers, classified electronics, lasers, and
                                 components from submarine, tank, aircraft and helicopter
                                 systems.

                            •    A Taiwanese national, employed by a Taiwanese firm, was
                                 sentenced to 24 months incarceration, 3 years probation, and a
                                 $5,000 fine after pleading guilty to conspiracy, money
                                 laundering, and Arms Export Control Act violations. The


                                              3
Semiannual Report to the Congress




                                        investigation disclosed that the employee and a Taiwanese
                                        businessman with ties to an Iranian procurement official
                                        attempted to illegally export Munitions List items to Iran that
                                        included electronic warfare equipment, night vision goggles,
                                        helicopter parts, and space imagery technology.

 Product Substitution               •   The former vice president and chief executive officer of a Kansas
 and Contract                           Defense contractor was convicted and sentenced to 21 months
 Noncompliance                          incarceration, 36 months supervised release, and ordered to pay
                                        $5,055,670 restitution to the Defense Logistics Agency for
                                        conspiracy, obstruction of justice, and perjury. An investigation
                                        determined that he had obstructed an investigation into
                                        allegations the contractor delivered defective O-Rings and seals
                                        used on military aircraft that caused an in-flight emergency
                                        involving a B-1B bomber.

                                    •   The director of a Florida Defense contractor was sentenced to 40
                                        months incarceration, 3 years supervised release, and ordered to
                                        pay $355,444 in restitution and a $1,200 special assessment
                                        following a guilty plea to false statements and false claims for
                                        supplying nonconforming “breech locks” for the .50 caliber (M2)
                                        machine gun to the Defense Supply Center-Columbus.

                                    •   The president of an Oklahoma Defense contractor was sentenced
                                        to 4 months of incarceration and 4 months of home confinement,
                                        3 years supervised release, and ordered to pay a fine of $15,000
                                        and a $1,000 special assessment, following a guilty plea to false
                                        statements and wire fraud related to false certifications on the
                                        overhaul of jet engine combustion chambers used on military and
                                        civilian aircraft, including the DC-9 and the Boeing T-43 (737).

                                    •   A major Defense contractor in Pennsylvania paid $4 million in a
                                        civil settlement to resolve allegations of presenting false
                                        certifications in two testing/processing procedures. This joint
                                        investigation revealed that the contractor was certifying that cast
                                        bars met contract specifications when, in fact, heat treatment test
                                        results were altered and welding of casting may have occurred in
                                        no-weld areas. The contractor ’s actions affected over 700
                                        Government purchase orders and approximately 300 military
                                        production part numbers. The company was a participant in the
                                        Department’s Voluntary Disclosure program.




                                                    4
                                                      Semiannual Report to the Congress




                  •   A Florida company and provider of parts for two major Defense
                      aircraft, and its operations manager pled guilty to five counts of
                      false statements and seven counts of false claims in Federal
                      District Court. The operations manager was sentenced to 40
                      months imprisonment with 3 years of supervised release and
                      ordered to pay $355,444 in restitution and $1,200 in special
                      assessments. The contractor was improperly heat-treating parts
                      a n d th en s el li n g th em to th e Go v e r n m en t a s m eet in g
                      specifications. The company, debarred from government
                      contracting, is no longer in business.

                  •   A Texas company and its owner pled guilty to mail fraud for
                      selling substandard aircraft parts and substandard oil tanks to the
                      Department of Defense. An investigation revealed the dimensions
                      of some parts were nonconforming and could create conditions
                      for oil leaks, presenting flight safety concerns. The owner was
                      sentenced to 5 years probation and ordered to pay $115,000 in
                      restitution and $1,400 in fines and assessments. The Government
                      debarred the company and four of its corporate officers for 3
                      years and suspended two former officers.

Computer Crime    •   A former member of a hacker group pled guilty to computer fraud
                      against DoD and was sentenced in Virginia to 27 months
                      confinement, 3 years probation, and ordered to pay $1,025 in
                      restitution.

                  •   A Nevada individual involved in the attempted “hacking” of DoD
                      computer systems pled guilty to illegally distributing the
                      copyrighted proprietary computer software known as “warez.”
                      This individual was sentenced to 6 months home confinement, 4
                      years supervised probation, and ordered to pay a $5,000 fine. To
                      date, there have been a total of 21 convictions related to this
                      investigation.

Financial Crime   •   An audit review and information obtained from various Inspector
                      General subpoenas resulted in a Defense shipbuilding company in
                      Virginia entering into a civil settlement with the Department of
                      Justice and returning $18 million in profit to the Department of
                      Defense and paying a $3 million fine. An investigation showed
                      that the company did not provide accurate and complete cost and
                      pricing data during negotiations with the Defense Department to
                      construct a major ship.




                                  5
Semiannual Report to the Congress




                                    •   A joint investigation, initiated as a result of a qui tam complaint,
                                        resulted in defective pricing charges against a New Jersey
                                        Defense contractor’s president. The complaint alleged that the
                                        contractor’s president submitted progress payment requests for
                                        inflated or non-existent work; falsified cost and pricing data;
                                        concealed information and provided false information to auditors;
                                        inflated overhead costs; and falsified information for the purpose
                                        of acquiring a corporate credit line. The president was ordered to
                                        pay $22,800 in restitution and was sentenced to 3 years probation
                                        and 6 months home detention.

                                    •   A Defense management services contractor in Norfolk, Virginia,
                                        pled guilty and was ordered to pay a fine of $8 million as a result
                                        of an investigation into corporate-wide fraudulent billing
                                        practices related to medical management, claims, and services
                                        affecting DoD and the U.S. Postal Service.

                                    •   A California Defense research contractor dropped its claims
                                        against the U.S., which exceeded $15 million, and entered into a
                                        $750,000 agreement to settle allegations it submitted false claims
                                        to the Government on a research and development contract
                                        specializing in rocket propulsion systems.

 Public Corruption                  •   A U.S. District Court judge in New Jersey sentenced four present
                                        and former corporate officers and two employees of six DoD
                                        contractors and subcontractors pled guility to violation of the
                                        Anti-Kickback Act in a kickback scheme primarily involving
                                        media graphics contractors. In total, they were sentenced to 41
                                        months and 36 months incarceration to be served concurrently, 32
                                        years probation, $59,300 in fines, $1,350 in special assessments,
                                        180 hours of community service, and 15 months of home
                                        surveillance. DoD debarred nine individuals from doing business
                                        with the Federal government for up to 3 years. To date, there have
                                        been a total of 24 convictions related to this investigation.

                                    •   U.S. District Court judges in New York state sentenced the
                                        president of a DoD subcontractor to one year imprisonment, 3
                                        years probation, and $227,341 in restitution, and sentenced a
                                        manager to 5 years probation and $25,259 in restitution,
                                        following an investigation of violations of the Davis-Bacon Act.
                                        These individuals previously pled guilty to Failure to File Annual
                                        Report under the Employee Retirement Income Security Program
                                        and Filing a Fraudulent Claim. In addition, the Department of the


                                                    6
                                                   Semiannual Report to the Congress




                    Army suspended from contracting the company manager, the
                    company president, and the company for an indefinite period of
                    time.

                •   A U.S. District Court judge in Texas sentenced a former
                    employee of a DoD contractor and two owners of a subcontractor
                    after their guilty pleas for their involvement in a kickback
                    scheme. The former employee was sentenced to 21 months
                    imprisonment, 2 years of supervised release, and fined $5,000;
                    and the two owners were sentenced to a total of 6 years probation
                    and ordered to pay a fine of $500. All three were suspended by
                    the Defense Logistics Agency from conducting further business
                    with the Government.

Environmental   •   A Virginia Defense contractor was ordered to pay a $200,000 fine
Crimes              and was placed on 2 years probation after pleading guilty to
                    making false statements in connection with a scheme to purchase
                    fraudulent environmental training certificates regarding asbestos
                    and lead abatement.

                •   A Kentucky Defense contractor and its president were found
                    guilty and assessed fines and penalties totaling $3,944,589 for
                    providing nonconforming coal with respect to sulfur and ash
                    limits on contracts for coal delivery to various DoD installations,
                    the Savannah River Nuclear Weapons Facility, and on other
                    Department of Energy contracts.

                •   A former manager of a Pennsylvania Defense subcontractor and
                    his spouse were sentenced to a total of 8 months house arrest with
                    electronic monitoring and 3 years probation after each pled guilty
                    to making false statements and aiding and abetting a scheme to
                    provide false asbestos removal certificates to employees of lead
                    and asbestos remediation firms. The false training certificates
                    were used on contracts for remediation of the former Philadelphia
                    Naval Shipyard.

Medical Fraud   •   The president of three healthcare corporations in Alabama,
                    dealing in durable medical equipment and related
                    pharmaceuticals, agreed to pay $1 million in a settlement
                    agreement to the U.S. Government to resolve allegations that the
                    companies and their president submitted false claims for health
                    care services.




                                7
Semiannual Report to the Congress




                                    •   A U.S. District Court in Florida sentenced an individual to 20
                                        years confinement, 36 months probation, and ordered him to pay
                                        restitution of $1,009,661 after pleading guilty to violations of the
                                        Health Care Fraud Statute and the Drug Abuse Prevention and
                                        Control Statute. In addition, a Preliminary Order of Forfeiture
                                        was filed for real property, currency, and assets belonging to the
                                        individual.

                                    •   A Wisconsin U.S. District Court sentenced 2 individuals to 14
                                        months incarceration followed by 3 years supervised release, and
                                        total restitution of $209,073, after they pled guilty for their
                                        involvement in a scheme to defraud TRICARE of $3 million by
                                        submitting false medical claims in the Philippines. To date, there
                                        have been a total of 15 convictions related to this investigation.

                                    •   A U.S. District Court judge sentenced a California doctor of
                                        osteopathy to 6 months incarceration and 3 years of supervised
                                        release subsequent to an earlier guilty plea to one count of mail
                                        fraud. The doctor agreed to pay criminal restitution of $29,500.
                                        In addition, the doctor agreed to pay $1,000,000 to resolve his
                                        civil liability under the False Claims Act and was excluded from
                                        federally funded health care programs for 10 years.

                                    •   A New York hospital entered into a $165,000 civil settlement
                                        with the U.S. Government to resolve allegations that it up-coded
                                        emergency room billings. The hospital was one of several
                                        medical providers that billed TRICARE for unnecessary
                                        emergency room treatment.

                                    •   The owner of a South Carolina health care provider and another
                                        doctor were sentenced to a total of 15 years confinement, 6 years
                                        probation, and fines and restitution amounting to $674,512 after
                                        they pled guilty for their involvement in a conspiracy to commit
                                        health care fraud.

                                    •   In Missouri, a university teaching hospital entered into a $1.8
                                        million civil settlement with the U.S. Government to resolve
                                        a lle g ati o n s it su b m i tt ed f r au d u l en t c lai m s r el ate d to
                                        anesthesiology services, some of which were submitted to
                                        TRICARE.




                                                     8
                                                             Semiannual Report to the Congress




DIRECTORATE FOR      The OIG DoD Directorate for Military Reprisal Investigations conducts
MILITARY REPRISAL    investigations and performs oversight reviews of investigations
INVESTIGATIONS       conducted by the Military Departments pertaining to:

                          •   Allegations that unfavorable actions were taken against members
                              of the Armed Forces, DoD nonappropriated fund employees, and
                              Defense contractor employees in reprisal for making protected
                              communications.

                          •   Allegations that members of the Armed Forces were referred for
                              mental health evaluations without being afforded the procedural
                              rights prescribed in the DoD Directive 6490.1, “Mental Health
                              Evaluations of Members of the Armed Forces,” and DoD
                              Instruction.6490.4, “Requirements for Mental Health Evaluations
                              of Members of the Armed Forces.”

 Whistleblower       During the reporting period, the DoD Inspector General and the Military
 Reprisal Activity   Department Inspectors General received 294 new complaints of
                     whistleblower reprisal. Of that number, 233 cases were closed during the
                     period, and 163 cases were closed after preliminary analysis determined
                     further investigation was not warranted. A full investigation was
                     conducted for 70 cases. Of the 70 cases, 21 (30 percent) contained one or
                     more substantiated allegations of whistleblower reprisal. Investigative
                     results were referred to commanders and supervisors for corrective
                     action.

 Examples of              •   An Army staff sergeant received an adverse noncommissioned
 Substantiated                officer evaluation report from his section chief, division chief,
 Whistleblower                and battalion commander in reprisal for submitting allegations of
 Reprisal Cases               theft and government equipment misuse to the Army Criminal
                              Investigations Division.

                          •   A Navy chief petty officer received a lowered enlisted
                              performance report in reprisal for reporting an inappropriate
                              relationship between his officer in charge and a female enlisted
                              member.

                          •   An Air Force test flight commander reprised against a subordinate
                              major after the major's complaint against the commander resulted
                              in his removal from command. The flight commander changed
                              the major's rating chain to lower-ranking officers and provided
                              false information to the flight surgeon that resulted in the major's
                              temporary grounding.


                                          9
Semiannual Report to the Congress




                                    •   A DoD contractor terminated an employee at an Air Force
                                        Hospital in reprisal for the employee’s protected disclosure
                                        regarding contract improprieties by his employer.

 Example of a Case                  •   An Air Force master sergeant violated provisions of Title 10,
 Involving Restricting                  United States Code, Section 1034, “Military Whistleblower
 a Member to Contact                    Protection Act,” and DoD Directive 7050. 6, “Military
 an IG or Member of                     Whistleblower Protection” that prohibit restricting members of
 Congress                               the Armed Forces from making protected communications to
                                        Inspectors General and Members of Congress. The master
                                        sergeant sent an all-hands email to a security forces squadron that
                                        prohibited members from contacting any outside entity, including
                                        the Inspector General, without receiving prior approval from the
                                        squadron.

 Oversight of U. S. Air      The DoD Inspector General and the Air Force Inspector General
 Force Academy               received 28 complaints regarding sexual assaults on current and former
 Cases (Alleged              U.S. Air Force Academy cadets. Thirteen of the complaints contained
 Reprisal for                allegations of reprisal for reporting the assaults. Currently, the DoD
 Reporting Sexual            Inspector General is investigating 3 of the reprisal cases; the Air Force
 Assaults)                   has completed 6 of the remaining 10 reprisal investigations.

 Referrals for Mental        Thirty-two cases involving allegations of improper referrals for mental
 Health Evaluations          health evaluations were closed during the reporting period. In 21 (66
                             percent) of those cases, commanders, first sergeants, and mental
                             healthcare providers failed to follow the proper procedures for referring
                             a service member for a mental health evaluation under DoD Directive
                             6490.1, “Mental Health Evaluations of Members of the Armed Forces.”
                             In most cases, procedural violations occur because commanders and
                             mental healthcare providers are not aware of their responsibilities when
                             a member is command-directed to undergo mental health evaluation. We
                             are working with the Departments to educate commanders and mental
                             health providers regarding the procedural requirements of the Directive.

DIRECTORATE FOR              In January 2004, the Inspector General of the Department of Defense
CIVILIAN REPRISAL            created one of the first whistleblower affairs offices within a Federal
INVESTIGATIONS               agency. The Directorate for Civilian Reprisal Investigations (DCRI) was
                             established under the Deputy Inspector General for Investigations.
                             DCRI’s mission is to provide assistance to Department of Defense
                             employees funded through Civilian Appropriated-Funds when those
                             employees face alleged retaliation on the job after disclosing a violation
                             of rule, law, and regulation.




                                                   10
                                                                Semiannual Report to the Congress




                        The DCRI works parallel to, and in conjunction with, the U.S. Office of
                        Special Counsel (OSC). OSC retains primary jurisdiction over the
                        administration of the Whistleblower Protection Act of 1989.

                        DCRI’s initial efforts have been organized to support ongoing
                        investigations by the OIG DoD, with an added focus on the integrity of
                        employee protections within the intelligence communities supervised by
                        the Department of Defense. Because OSC generally does not have
                        jurisdiction over the Defense Intelligence Agencies, employees of the
                        National Security Agency and the Service intelligence communities who
                        feel they have been the victims of reprisal have had limited recourse
                        available to them.

SENIOR OFFICIAL         The OIG DoD Directorate for Investigations of Senior Officials
INQUIRIES               investigates allegations against senior military and civilian officials and
                        oversees senior official investigations conducted by the Military
                        Departments.

                        Figures 2 and 3 (page 12) display results of activity on senior official
                        cases during the first 6 months of FY 2004. As of March 31, 2004, there
                        were 263 open investigations into senior official misconduct throughout
                        the Dep ar t ment, which r epr e sen ted a sl ight decr e as e fr om
                        October 1, 2003, when we reported 275 open investigations. Over the
                        past 6 months, the Department closed 256 senior official cases. Thirty-
                        three (13 percent) of those closed cases contained substantiated
                        allegations.

INSPECTIONS AND
POLICY

 Investigative Policy   The Investigative Policy and Oversight (IPO) Office assists the OIG
 and Oversight          DoD in fulfilling its statutory responsibilities to prevent fraud, waste,
                        and abuse by developing investigative policy for the Department and
                        monitoring and evaluating the performance of more than 3,600 special
                        agents and 48,000 law enforcement personnel in the Department. IPO
                        eval uat es i nvest ig at i ve and law enf or cement program s and
                        organizations; reviews issues concerning individual investigations;
                        develops Department-wide policy affecting the investigative and law
                        enforcement community; coordinates on legislative proposals; and
                        administers the OIG DoD Subpoena and Voluntary Disclosure
                        programs. IPO provides oversight of the policies and operations of the




                                             11
Semiannual Report to the Congress




                                            D oD T otal Senior O fficial C ases
                                                   F Y 2000 - F Y 2004

                                                          578
                  600
                                                                        503
                                                   48 8                                        5 03
                  500         455                                             460
                                                                                                      42 7
                                    402
                  400
                  300                                                                                                        25 6
                                                                                                                      2 26

                  200
                                                                89
                  100                     69                                        70                       57
                                                                                                                                    33

                     0
                                   F Y0 0            F Y0 1                 F Y 02               F Y 03               F Y 04--1st
                                                                                                                         H alf

                                                   O p en ed          C lo sed           S u b stan tiated


                            T his chart shows the total number of senior official investigations
                              conducted in D oD over the past four and one-half fiscal years.


                                                                     Figure 2




          N atu re o f Su bsta n tiated A lleg ation s A gain st S en ior O fficials
                                  D u ring 1st H alf F Y 04

               M is us e G o v't
                Pro pe rty/                                                                   O the r
                                                                                           M is c o nduc t
                R e so urc e s
                    32%                                                                         9%


                                                                                                                                     A buse o f
                                                                                                                                     A utho rity/
                                                                                                                                    F a vo ritis m
                                                                                                                                        23%




                      Im pro pe r P e rs o nne l                                                              S exua l Ha ra s s me nt/
                              A ctio n                                                                              I mpro pe r
                               29%                                                                                R e la tio nship
                                                                                                                         7%

                                                                     Figure 3




                                                                       12
                                        Semiannual Report to the Congress




four DCIOs and other investigative organizations in the Department.
Information on some of the IPO’s actions and products follows.

On February 14, 2004, IPO released a Follow-Up Evaluation on the
Defense Protective Service (DPS). (On May 3, 2002, the Pentagon Force
Protection Agency was established and the DPS became a subordinate
element.) The evaluation reviewed 27 recommendations in a May 14,
1999, report to improve DPS operations and management. The evaluation
team determined that of the 27 original recommendations, the DPS had
implemented only 5, one of which resulted in a significant pay increase
for DPS police officers. One recommendation had been resolved without
imp lemen tat ion . Th e team i dentif ied prob lems related to t he
implementation of the remaining 21 recommendations, some of which
were critical to effective law enforcement operations. The report included
recommendations to correct the deficiencies identified during the follow-
on evaluation. A member of Congress identified additional areas of
concern, which the team resolved.

During this reporting period, the U.S. Senate Armed Services Committee
(SASC) asked the OIG DoD to expand an on-going evaluation of the Air
Force’s response to allegations of sexual assaults at the Air Force
Academy. Specifically, the SASC requested that the OIG DoD address a
recommendation by “The Panel to Review Sexual Misconduct
Allegations at the U.S. Air Force Academy” (the Fowler Panel) to
“conduct a thorough review of the accountability of Academy and the Air
Force Headquarters leadership for the sexual assault problems at the
Academy over the last decade” including the “actions of current as well
as previous Air Force Leadership.” The SASC request closely parallels a
similar request by the Subcommittee on Total Force, House Armed
Services Committee. The OIG DoD expanded its evaluation to include
those accountability issues. Additionally, in response to requests of the
Secretary of Defense and the Chairman of the SASC, the OIG DoD
initiated sexual assault and leadership climate surveys at the three
military service academies. The surveys were pending at the end of this
period.

On January 1, 2003, the OIG DoD began collecting statistics regarding
Defense Criminal Investigative Organization investigations of fraud
involving the Government Purchase Card (GPC) Program. Seventy-two
investigations, identifying various fraud schemes, have been initiated
from that date to March 31, 2004. Misuse of the GPC for personal
purchases and schemes regarding kickbacks and bribes continue to top
the list of investigations. Of the 72 investigations, 57 are pending and 15


                     13
Semiannual Report to the Congress




                             have been closed with various actions taken. Some of these cases
                             resulted in fines of up to $40,000 and Dishonorable and Bad Conduct
                             discharges for military service members involved in the abuse of the
                             cards.

 Voluntary Disclosure        The Voluntary Disclosure Program encourages contractors to disclose
 Program                     potential criminal or civil fraud that may affect their contractual
                             relationship with the DoD or the contractor’s responsibility under the
                             Federal Acquisition Regulation. During this reporting period, the
                             Government received two requests for admission to the program and
                             recovered $4.5 million in settlement of disclosures.

                             In one voluntary disclosure case, a company reported that it had failed to
                             comply with certain quality and manufacturing procedures at a number
                             of its facilities. In the second case, a company disclosed that one of its
                             employees submitted fraudulent invoices to the Government while
                             posing as an outside supplier.

 Hotline                     The OIG DoD Hotline continues to be a tool for DoD employees,
                             military service members, and the public to report violations of ethical
                             standards, including but not limited to fraud, waste, or abuse of
                             authority, and potential leaks of classified information. During this
                             reporting period, the OIG DoD Hotline received 7,363 contacts from the
                             public and members of the DoD community and initiated 1,324
                             investigations and closed 1,534 cases. Investigations initiated by the
                             OIG DoD Hotline returned $774,515 to the Government during this
                             reporting period. Additionally, the OIG DoD Hotline received 26
                             congressional inquiries during this reporting period.

 Inspections and             On September 8, 2003, the Inspector General of the Department of
 Evaluations                 Defense established an Inspections and Evaluations Directorate within
                             the Office of the Deputy Inspector General for Inspections and Policy.
                             The programming plan to support this new Directorate was approved on
                             March 15, 2004. In addition to monitoring compliance with law and
                             DoD policy, the Directorate evaluates, reviews, and assesses DoD
                             programs and activities to provide information and recommendations to
                             managers for decision-making and to improve programs, policies, and
                             procedures. Evaluators are selected based on their technical expertise
                             and their experience in using different types of study methods and
                             evaluation methodologies.




                                                 14
                                                              Semiannual Report to the Congress




                     The Directorate has 20 people and is programmed to build to 50 military
                     and civilian personnel by the end of fiscal year 2005. The organizational
                     structure includes six divisions:

                          •   Joint Operations, Military Departments, and Service Inspectors
                              General

                          •   Reserve Forces

                          •   Homeland Defense

                          •   Safety and Operational Health

                          •   Engineering and Environment

                          •   Special Projects and Technical Assistance

                     These divisions are designed to provide broad subject area expertise to
                     address the President’s Management Agenda, DoD top priorities, and
                     OIG performance and management challenges for the Department of
                     Defense.

Support to           On March 25, 2004, the Joint Operations Division, Inspections and
Inspectors General   Evaluations, completed a revision of DoD Directive 5106.4, “Inspectors
of the Combatant     General of the Combatant Commands,” and a new Draft DoD Instruction
Commands             5106.4 to implement the directive. The Joint Staff and Combatant
                     Command Inspectors General are conducting an informal review of these
                     documents; the formal worldwide review will be completed on
                     June 1, 2004. This policy will provide one comprehensive standard for
                     Combatant Command IG operations and will serve as the baseline for the
                     development of a Joint IG Training Course.

Audit Policy and     In accordance with the Inspector General Act of 1978, as amended in
Oversight            1982, the Office of Assistant Inspector General for Audit Policy and
                     Oversight (APO), provides policy direction and oversight for audits
                     performed by more than 6,500 DoD auditors, ensures appropriate use of
                     non-Federal auditors and their compliance with auditing standards and
                     ensures that contracting officials comply with statutory and regulatory
                     requirements when resolving contract audit report recommendations in
                     accordance with DoD Directive 7640.2, “Policy for Followup on Contract
                     Audit Report.” During the reporting period, APO issued or participated in
                     oversight, quality control, special assistance reviews and Hotline reviews,
                     as follows, and completed several other significant actions.



                                           15
Semiannual Report to the Congress




                                    •   Administrative Inquiry into Allegations Concerning the Defense
                                        Contract Audit Agency Alteration of Working Papers at the New
                                        York Branch Office (October 6, 2003)

                                    •   Defense Contract Audit Agency Quality Assurance Review of
                                        “All Other” Audits (D-2004-6-001, October 21, 2003)

                                    •   Quality Control Review of PricewaterhouseCoopers, LLP and the
                                        Defense Contract Audit Agency Office of Management and
                                        Budget Circular A-133 Audit Report of the MITRE Corporation,
                                        Fiscal Year Ended September 30, 2001 (D-2004-6-002, October
                                        21, 2003)

                                    •   Quality Control Review of Defense Contract Audit Agency Audit
                                        Operations (D-2004-6-003, December 15, 2003)

                                    •   Review of Allegations Concerning NAVAIR Contracting Officer
                                        Actions (D-2004-6-004, December 5, 2003)

                             Other significant actions include:

                                    •   Updated and reissued DoD Directive 7600.2, “Audit Policies,”
                                        DoD Directive 7600.10, “Audits of States, Local Governments,
                                        and Non-Profit Organizations,” and DoD Instruction 7600.6,
                                        “Audit of Nonappropriated Fund Instrumentalities and Related
                                        Activities.”

                                    •   Trained more than 250 DoD auditors on the 2003 revision to
                                        Government Auditing Standards issued by the Comptroller
                                        General of the United States. Taped sessions of the training and
                                        facilitator documentation continue to provide training to more
                                        DoD auditors.

                                    •   Provided comments to Federal Acquisition Regulation revisions
                                        to 31.205-35, Relocation Costs, expressing concern that the
                                        proposed change would subject millions of dollars to subjective
                                        tests of reasonableness with no supporting documentation and
                                        would result in Government and contractor personnel expending
                                        significantly more resources in determining reasonableness and
                                        resolving disputes. The proposed change allowed contractors the
                                        option of claiming on a lump-sum basis employee relocation costs
                                        for costs of finding a new home, travel to a new location, and
                                        temporary lodging.


                                                   16
                                                            Semiannual Report to the Congress




                          •   Issued 199 memoranda to DoD Components on direct and
                              systemic findings from single audit reports that may impact DoD
                              programs in accordance with Office and Management Budget
                              Circular A-133, Audits of States, Local Governments, and Non-
                              Profit Organizations, June 24, 1997, as revised.

AUDITING             The OIG DoD, the Army Audit Agency, the Naval Audit Service, and
                     the Air Force Audit Agency issued 251 reports, which identified the
                     opportunity for nearly $1 billion in monetary benefits. Appendices B and
                     C, respectively, list OIG DoD reports with potential monetary benefits
                     and statistically summarizes audit followup activity.

                     The Defense Contract Audit Agency (DCAA) provided financial advice
                     to contracting officers in 17,753 reports issued during the period. Con-
                     tract auditing resulted in approximately $3,766.6 million in questioned
                     costs and funds that could be put to better use. Further details are at
                     Appendix D. Contracting officers disallowed $111.1 million as a result
                     of significant DCAA post-award contract audit reports closed during
                     the period. Additional details on the status of actions taken on signifi-
                     cant post-award contract audits are in Appendix E.

Acquisition Audits   The Department is the largest purchaser in the world; in fiscal year 2003,
                     a total of $231 billion was spent on acquisition. On an average working
                     day, the Department issues more than 22,000 contract actions valued at
                     $841 million and makes more than 140,000 credit card transactions
                     valued at $37 million. The Department’s challenge is to obtain the best
                     value of quality and cost for a myriad of goods and services. During the
                     reporting period, the Defense audit community issued 62 reports on
                     acquisition matters.

                     Every acquisition dollar that is not prudently managed results in the
                     unavailability of that dollar to fund the Secretary of Defense’s top 10
                     priorities, such as the global war on terrorism and joint warfighting
                     capabilities. For example, procedures for contracts awarded by the
                     Defense Contracting Center-Washington in support of the Coalition
                     Provisional Authority (CPA) needed improvement. An OIG DoD report
                     showed that the Department did not plan for the acquisition support that
                     the Office of Reconstruction and Humanitarian Assistance, subsequently
                     replaced by the CPA, required to perform its mission. A review of 24
                     contracts, valued at $122 million, showed that supplies and services
                     were quickly acquired but that contracting ru les were either
                     circumvented or liberally interpreted. The contracting officers misused



                                         17
Semiannual Report to the Congress




                             the General Services Administration Federal Supply Schedules for 10
                             contracts, inappropriately awarded 10 personal services contracts, did
                             not support price reasonableness determinations for 22 contracts, and
                             performed little or no Government surveillance on 13 contracts. The
                             report identified for possible recoupment about $634,000 of contractor
                             overpayments. The lack of attention to proper contracting procedures
                             resulted in not obtaining the best contracting solution or price for post-
                             war occupation and humanitarian relief operations. The report also
                             included recommendations to correct the contracting problems and a
                             recommendation to the Deputy Secretary of Defense to designate an
                             office to study the existing DoD post-war strategy and establish
                             responsibilities, policies, and procedures for acquisition of goods and
                             services in support of future post-war occupations and relief operations.

                             The Department has about 1,500 weapon system acquisition programs
                             valued at $2.1 trillion over the collective life of the programs. OIG DoD
                             audits of the CH-47F Improved Cargo Helicopter and the Joint Chemical
                             Agent Detector demonstrated the need to update acquisition program
                             baselines, test and evaluation plans, and life cycle cost estimates to
                             effectively manage the program and facilitate investment decisions.
                             Additionally, a Naval Audit Service review of processes and controls for
                             cost estimating at the Naval Air Systems Command and the Naval Sea
                             Systems Command concluded that because of a variety of internal and
                             external factors, cost estimates increased an average of 21 percent for a
                             total of $15 billion during the life cycles of the 18 programs audited.
                             Further, for the Global Hawk Unmanned Aerial Vehicle, the Air Force
                             Audit Agency determined that program officials proactively transitioned
                             the program from a traditional (single-step to full-capability) acquisition
                             ap pr oach t o a n e v olu ti on a ry a c qu isi ti on strateg y. Ho wev er,
                             improvements were needed to align key plans and related documents
                             with the evolutionary acquisition strategy to facilitate the ability to
                             obtain the maximum benefit from long-term baseline control, program
                             continuity, and communication.

                             Another OIG DoD report identified a variety of shortcomings in the
                             approach the Air Force used to reach a multi-billion dollar deal to
                             acquire 100 Boeing KC-767A tanker aircraft and recommended various
                             changes before DoD allows the program to proceed. Although the report
                             did not recommend program cancellation, it did identify statutory
                             requirements and other related issues pertaining to the current program
                             structure and procurement strategy that required resolution before
                             continuing with the acquisition.




                                                  18
                                      Semiannual Report to the Congress




In FY 2003, the Department contracted for $123 billion in services.
Annual procurement of services now exceeds the $89 billion of
purchases to acquire weapon systems and spare parts. An OIG DoD
review of $17.8 billion of purchases for professional administrative and
management support services found that for 113 contracts, 98 percent
had problems such as inadequate competition (28 percent), inadequate
contract surveillance (67 percent), and inadequate basis for price
reasonableness determinations (88 percent). The report pointed out that
little had improved since a review in 2000 identified similar problems.
The Under Secretary of Defense for Acquisition, Technology, and
Logistics and the Services responded by initiating numerous corrective
actions to ensure that future acquisitions for services are properly
awarded and administered.

Additionally, overpricing on spare parts purchased on a sole-source
basis continues to be a problem that has been reported for 6 years. An
OIG DoD report on purchases from AAR Defense Systems, an exclusive
distributor for Hamilton Sundstrand, showed that the Army and the
Defense Logistics Agency will pay about $22 million more than the fair
and reasonable price for the spare parts purchased. The problems existed
because the Army and Defense Logistics Agency purchased the parts on
a sole-source basis from the distributor instead of from the original
equipment manufacturer without determining whether the distributor
was adding sufficient value to cover pass-through costs. Also,
contracting officers were not obtaining adequate cost or pricing data in
order to determine price reasonableness.

Further, the Defense auditing community is heavily involved in helping
the Department reduce its vulnerability to credit card misuse. The OIG
DoD reported that controls over purchase card use were not properly
implemented and were ignored by senior management at the Space and
Naval Warfare Information Technology Center, New Orleans. The
Center incurred about $1.1 million of questionable purchases and
exposed the Department to financial risk because monthly credit limits
were $31 million greater than needed. An example of unneeded
purchases occurred in two shopping trips where the Director and Deputy
Director purchased supplies worth $4,600 that included luggage,
personal finance software, binoculars, and a global positioning system
that had no Government use. The Navy agreed to improve management
controls, fill key oversight management positions, and perform a review
of individuals involved in the purchases. Additionally, an OIG DoD
audit of the Washington Headquarters Services revealed that agency
employees made about $1.7 million of fraudulent purchases and


                    19
Semiannual Report to the Congress




                             $201,000 of improper purchases with purchase cards to include
                             computer games, coffee mugs, kitchen radios, and power tools.
                             Proactive efforts of both the OIG DoD data mining group and the
                             Department’s purchase card program office increased senior leadership
                             involvement and improved management controls over the purchase card
                             program. In another example of weak management controls, the Naval
                             Audit Service reported that selected Navy activities did not maintain
                             adequate internal controls over their purchase card programs, did not
                             maintain transaction files, and did not include the purchase card program
                             in their management control program.

 Human Capital               The President’s Management Agenda, the U.S. General Accounting
 Audits                      Office (GAO), and the DoD continue to identify Human Capital as a top
                             concern. The challenge in the area of Human Capital is to ensure that the
                             DoD workforce of 1.5 million active duty, 1.5 million Guard and
                             Reserve personnel, and 800,000 civilians are appropriately sized, well
                             trained and motivated, held to high standards of integrity, encouraged to
                             engage in intelligent risk taking, and thus capable of handling new
                             technologies and threats. However, demographics are rapidly changing.
                             By 2006, approximately 66 percent of the DoD civilian workforce will
                             be eligible to retire. Without proper planning, DoD will not be able to
                             recruit and retain employees with the necessary mix of skills to reflect
                             and support tomorrow’s changing missions. Although the number of
                             youth in the country is growing, their propensity to enlist in the military
                             is decreasing, and in the civilian workforce, this same youth expect new
                             benefits and greater flexibilities in the workplace. During the reporting
                             period, the Defense audit community issued 16 reports on Human
                             Capital issues.

                             FY 2004 is an auspicious year for DoD in regard to Human Capital.
                             Today’s military is the best ready-to-fight force in our nation’s history as
                             proven by Iraqi Freedom. In addition, for the first time since the Civil
                             Service Reform Act of 1978, major changes to the Department’s
                             personnel system will occur with the implementation of the National
                             Security Personnel System (NSPS). The NSPS will allow DoD to
                             develop a flexible and fair system to help attract, retain, reward, and
                             grow its civilian workforce to meet national security demands. In
                             addition to NSPS implementation, DoD has undertaken a number of
                             initiatives to improve personnel management including the expansion of
                             its Personnel and Readiness Strategic Plan through 2006 and
                             identification of 51 performance measures in its Civilian Resources
                             Strategic Plan that will fully support the new NSPS.




                                                  20
                                                           Semiannual Report to the Congress




                    The defense audit community has also begun initiatives to strategically
                    address the Human Capital issue. Specifically, the OIG DoD established
                    a dedicated cadre of auditors to assess Human Capital issues and is
                    developing a strategic audit plan to systematically prioritize and perform
                    audits that will provide the Under Secretary of Defense for Personnel
                    and Readiness and senior military officials with meaningful information
                    on DoD Human Capital issues. The OIG DoD and the Service audit
                    agencies also established a Human Capital Joint Audit Planning Group.

                    The OIG DoD report on the implementation of the DoD voting
                    assistance program for 2003 stated that the Federal Voting Assistance
                    Program Office provided a variety of valuable resources and assistance
                    to voting assistance officers and uniformed absentee voters and their
                    dependents. However, the DoD voting assistance programs could be
                    improved. Specifically, DoD needs to expedite planned revisions to its
                    voting assistance guidance. Additionally, the Services should provide
                    command emphasis at all organizational levels and increase oversight to
                    ensure effective program implementation. Frequent deployments,
                    increased operational requirements, and worldwide commitments are
                    compelling reasons for DoD to maximize the effectiveness of its
                    program.

                    The Army Audit Agency reported that the Army has realistic goals for
                    minimizing training-base and first-term soldier attrition. However,
                    recruiters did not always require applicants to disclose medical
                    conditions on prescreening forms, follow up on medical conditions
                    disclosed on prescreening forms, or obtain the names of primary care
                    physicians and medical insurance providers. Because of the absence or
                    late disclosure of this information, medical examiners may not always
                    have had the opportunity to follow up on existing medical conditions.

Financial           The Department’s financial statements are the largest, most complex,
Management Audits   and diverse in the world. The Department faces financial management
                    problems that are complex, long-standing, pervasive, and deeply rooted
                    in virtually all business operations Department-wide. These problems
                    have impeded the ability to provide reliable, timely, and useful financial
                    and managerial data to support operational, budget, and policy decisions.
                    Because of these problems, the Department has been precluded from
                    receiving an unqualified audit opinion on all but two of its financial
                    statements. To date, only the Military Retirement Fund has received an
                    unqualified audit opinion while the Medicare Eligible Retiree Health
                    Care Fund received a qualified audit opinion for FY 2003.




                                        21
Semiannual Report to the Congress




                             The OIG DoD is working closely with the Department to address these
                             long-standing financial management problems and supports the
                             Department’s goal of achieving a favorable audit opinion for the
                             FY 2007 DoD financial statements. The Under Secretary of Defense
                             (Comptroller)/Chief Financial Officer has directed an initiative to
                             improve financial management in the Department of Defense with the
                             stated objective of achieving an unqualified audit opinion on the
                             Department’s financial statements for FY 2007. As the Department’s
                             statutory auditor, this initiative will require the OIG DoD to conduct or
                             contract for annual audits on about 65 financial statements and their
                             associated financial systems. To accomplish the annual audits, the OIG
                             DoD needs to hire about 300 additional audit personnel within the next 3
                             years to either conduct or oversee the conduct of these audits by
                             independent public accounting and information technology firms.
                             Specifically, we need significant numbers of additional personnel that
                             already possess specialized skills and management experience in
                             auditing financial statements and systems. The knowledge and
                             experience needed by senior level personnel to manage audits of
                             complex financial statements and a network of integrated systems can
                             only be acquired through extensive, specialized work experience. Filling
                             these positions is critical to the mission of the Inspector General because
                             of the imminent need for such a large number of “experienced” and
                             specialized audit staff within the next 3 years. Congressional approval is
                             being sought to support the planned expenditures.

                             The DoD audit community issued 76 reports on Financial Management
                             during the reporting period. The OIG DoD issued an audit report on
                             contracts awaiting financial adjustment at the Defense Finance and
                             Accounting Service Columbus. The report found that the Mechanization
                             of Contract Administration Services system contained 1,084 contracts
                             valued at $2.9 billion that have remained open for more than 2 years and
                             upwards of 9 years while awaiting financial adjustment. In addition, the
                             OIG DoD issued a report on the management controls over DoD transit
                             subsidies within the National Capital Region. The report found that
                             controls over transit subsidy programs within the Army, Navy, Air
                             Force, and the Defense Logistics Agency needed improvement.

                             The Naval Audit Service also found that management of the Navy
                             Civilian Financial Management Career Program had not defined or
                             ascertained the baseline level of professionalism for more than 8,100
                             Financial Mana gement employe es. As a res ult of audit
                             recommendations, management took action to analyze, develop, and




                                                 22
                                                          Semiannual Report to the Congress




                    establish meaningful metrics for commonality among the civilian
                    community and specificity within the financial community.

                    Additionally, the Air Force Audit Agency reported that improvements
                    were needed in system controls and implementation of all the applicable
                    Federal accounting conformance requirements for the first increment of
                    the Financial Information Resource System. These improvements should
                    enable the increment, known as the Enterprise Data View, to achieve
                    substantial Chief Financial Officers Act compliance and improve
                    budgetary data reliability.

Homeland Security   The ongoing mission of Operation Iraqi Freedom continues to elevate
Audits              the level of threat from adversaries who may use nuclear, chemical, and
                    biological weapons or weapons of mass destruction against the United
                    States and its allies. The DoD audit community issued eight reports
                    related to Homeland Security.

                    One activity integral to Homeland Security is the Cooperative Threat
                    Reduction Program (CTRP). The CTRP was initiated to reduce the
                    threat posed by weapons of mass destruction in the former Soviet Union.
                    Under this program, the United States provides funds to build facilities
                    and operate programs to safeguard, transport, and ultimately destroy
                    chemical and nuclear weapons. The OIG DoD issued two reports
                    addressing CTRP. One of the reports discussed projects for construction
                    of facilities that will support the destruction of weapons and weapons
                    material and the implementing agreements for those projects. The
                    second report addressed the CTRP management structure and stated that
                    the Office of the Under Secretary of Defense for Acquisition,
                    Technology, and Logistics did not actively participate in planning,
                    programming, and budgeting activities nor evaluate whether
                    procurements should receive additional management attention.

                    The Army Audit Agency repo rted th at the Ar my’s plans for
                    implementing an Installation Preparedness Program for Weapons of
                    Mass Destruction were not adequate and plans related to first responders
                    were substantially fragmented and ineffective. Also, the Army’s plans to
                    implement a standard package of equipment and training requirements
                    for installations and to have installations program their own
                    requirements were not fully effective. Additionally, key first responder
                    roles and responsibilities were fragmented and key Army policy and
                    guidance for the program was not fully effective. As such, senior Army
                    management had no assurance that any initiatives would be sufficient to
                    meet its overall vision of an installation preparedness program that


                                        23
Semiannual Report to the Congress




                             minimizes the effects of an incident involving weapons of mass
                             destruction.

 Information Security        Information security is a cornerstone of Homeland Security. The
 Audits                      information security threat to DoD systems and to other public and
                             private sector systems, on which national security depends, is greater
                             than ever. The DoD audit community issued 10 reports related to
                             Information Security.

                             The OIG DoD issued two reports on information security controls at
                             selected military treatment facilities and TRICARE contractor sites
                             where electronic patient information is stored. The first report addressed
                             improvements needed in storage, disposal, and accountability of
                             information technology that contains electronic patient information and
                             also identified personnel reliability and building security issues. The
                             second report found that although TRICARE contractors had
                             implemented extensive physical information security controls to protect
                             electronic, patient-sensitive information, the contractors did not
                             maintain records to document the sanitization process for information
                             technology storage media that record, process, and store electronic,
                             patient-sensitive information. As a result, inadequate sanitization
                             records reduced the assurance that electronic, patient-sensitive
                             information for more than 8.5 million beneficiaries was appropriately
                             protected. Improving controls over patient information maintained in the
                             Military Health System would reduce the risk of unauthorized access to
                             and use of such information and facilitate compliance with requirements
                             of DoD and the Health Insurance Portability and Accountability Act of
                             1996.

 Logistics Audits            The OSD Strategic Logistics Plan states “The changing threat requires
                             that logistics be flexible, mobile, integrated, compatible, and precise in
                             targeting support to the point of need.” The OIG DoD logistics audits
                             have focused on supporting this strategic plan. DoD spends more than
                             $80 billion a year on logistics support operations for supplies,
                             transportation, and maintenance costs. Defense maintenance alone
                             consumes an estimated $50 billion annually. It is a business that
                             involves nearly 700,000 active and reserve military personnel and DoD
                             civilian personnel, as well as several thousand private-sector firms.
                             Supported weapon systems include approximately 300 ships,
                             15 , 00 0 ai rcr aft an d hel i co pt ers , 9 0 0 st rat egi c mi ssi l es, an d
                             340,000 ground combat and tactical vehicles. Hundreds of thousands of
                             additional mission support assets are also maintained. The DoD audit




                                                   24
                                                          Semiannual Report to the Congress




                  community issued 40 reports on logistics issues during the reporting
                  period.

                  The OIG DoD issued two reports during the period that typify the broad
                  range of audits that contribute to assisting the Department in improving
                  logistics operations. A report covering critical contractor logistics
                  support provided in support of the 89th Airlift Wing at Andrews Air
                  Force Base, Maryland, determined that the contractor was providing
                  highly effective support. Another report substantiated a DoD Hotline
                  allegation that the failure of the Defense National Stockpile Center to
                  enforce contract terms and effectively control debt management resulted
                  in the loss of about $13.5 million on sales of surplus tin to a contractor.

                  Also, the Army Audit Agency reported that current user needs were
                  being adequately met with the Tactical Quiet Generator program and
                  future needs should be met with the Tactical Electric Power generator
                  program. However, improvements were needed in accelerating
                  procurement funding for the programs to allow for the timely fielding of
                  more reliable and energy efficient generators and to allow the Army to
                  realize a significant cost avoidance in reduced fuel and maintenance
                  costs related to generators.

                  Additionally, the Air Force Audit Agency issued a report that concluded
                  that all U.S. Air Force Europe C-130 aircraft engine maintenance should
                  be accomplished at base-level, rather than shipping the engines to the
                  servicing depot facility in the United States. This would reduce repair
                  cycle time by 60 percent, reduce spare engine requirements by 7
                  engines, and save the Air Force more than $2.5 million per year ($15.3
                  million over the Future Years Defense Plan).

Export Controls   The annual statutorily required audit of export controls focused on the
                  Department’s policies and procedures related to preventing the transfer
                  of technologies and technical information with potential military
                  application to countries and entities of concern. An OIG DoD report
                  stated that the Department does not have adequate processes to identify
                  unclassified export-controlled technology and to prevent unauthorized
                  disclosure to foreign nationals. Of the 20 contractors, universities, and
                  Federally Funded Research and Development Center facilities reviewed,
                  15 relied on the contract to identify whether the technology was export
                  controlled, and 4 were unaware of Federal export laws and regulations
                  related to export-controlled technology. Department guidance did not
                  delineate Components’ responsibilities to identify export-controlled



                                      25
Semiannual Report to the Congress




                                    technology. Further, the guidance did not provide sufficient policies and
                                    procedures to make sure that the contract included assurances that
                                    facilities obtained a license or prevented foreign nationals from
                                    unauthorized access to unclassified export-controlled technology. In
                                    addition, the Defense Federal Acquisition Regulation Supplement did
                                    not contain a standard clause that requires the facility to comply with
                                    Federal export laws and regulations related to export-controlled
                                    technology. As a result, at least two contractors and one university
                                    inadvertently granted foreign nationals access without proper
                                    authorization. A referral was made to the Deputy Inspector General for
                                    Investigations to investigate the unauthorized foreign national access of
                                    unclassified export-controlled technology .

SIGNIFICANT OPEN                    Managers accepted or proposed acceptable alternatives for 242
RECOMMENDATIONS                     (95 percent) of the 256 OIG DoD audit recommendations made in the
                                    first 6 months of fiscal year 2004. Many recommendations require
                                    complex and time-consuming actions, but managers are expected to
                                    make reasonable efforts to comply with agreed-upon implementation
                                    schedules. Although most of the 946 open actions being tracked in the
                                    OIG DoD followup system are on track for timely implementation, there
                                    were 211 reports more than 12 months old, dating back as far as 1991,
                                    for which management has not completed actions to implement the
                                    recommended improvements.1/

                                    Significant open recommendations that have yet to be implemented
                                    include the following:

                                           •    Recommendations made in 2002 to develop and implement
                                                consistent guidance and a process to measure and assess
                                                interoperability and information assurance policies for the
                                                acquisition of DoD weapon systems. Applicable DoD policies are
                                                in the process of being revised.

                                           •    Recommendations made in 2002 to improve oversight and
                                                management controls and to develop training for the DoD

1. Section 6009 of the Federal Acquisition Streamlining Act, as amended, provides: “If the head of the agency fails to
  complete final action with regard to a management decision within the 12-month period, the inspector general concerned
  shall identify the matter in each of the inspector general’s semiannual reports pursuant to section 5(a)(3) of the Inspector
  General Act of 1978 (5 U.S.C. App.) until final action on the management decision is completed.” A list of OIG DoD
  reports on which management decisions have been made but final action has not been taken is contained in the Secretary
  of Defense Report issued pursuant to section 5(a) of the Inspector General Act.




                                                             26
                                                        Semiannual Report to the Congress




                        purchase card program. A standardized training program for
                        cardholders and billing officials has been developed. DoD
                        policies and guidance on purchase card use and management
                        controls are nearing completion.

                    •   Recommendations made in 2002 and 2003 to negotiate
                        amendments to CTRP agreements to use U.S.-provided assistance
                        for intended purposes remain open. Related recommendations
                        were made in 2004. Proposed CTRP agreement amendments to
                        ensure that the Russian Federation will meet its commitments and
                        also to provide access to and visibility over the use of U.S.-
                        funded CTRP facilities are being coordinated among Russian
                        Federation Ministries. Management is taking actions to reclaim
                        facility components or use remaining assets for CTRP purposes
                        and to avoid the pitfalls that resulted in construction of facilities
                        that were not used as intended.

                    •   Recommendations made in 2001 and subsequent years addressing
                        f inancial sys tems d ef icien cies an d th e DoD Financial
                        Management improvement plan. In response to recommendations
                        made in 2003, efforts are underway to establish an integrated
                        repository that will include existing relevant databases and will
                        capture information technology systems and business systems, as
                        well as budget data. Initiatives underway to correct financial
                        systems deficiencies should enable the Department to provide
                        accurate, timely, and reliable financial statements. However, at
                        present this is not expected to occur until FY 2007.

INTELLIGENCE   The DoD Intelligence Community Inspectors and Auditors General
               continue to pursue a vigorous agenda of audits, evaluations, inspections,
               investigations, and special projects of importance to DoD and the
               congressional oversight committees. Eighty-eight reports were
               completed by the Office of the Inspector General of the DoD; the IGs of
               the Defense Intelligence Agency, National Geospatial-Intelligence
               Agency (formerly the National Imagery and Mapping Agency), National
               Reconnaissance Office, and National Security Agency; the Naval Audit
               Service; the Naval Criminal Investigative Service; the Air Force Audit
               Agency; the Army Audit Agency; and the Defense Contract Audit
               Agency. The reports are categorized into the areas shown in Figure 4
               below.

               See the Classified Annex to this report for a listing and highlights of the
               88 reports.


                                    27
Semiannual Report to the Congress




                                         Intelligence-Related R eports
                                                                        Military     D efense
                          Area                       IG D oD         D epartm ents   Agencies   Total

              Joint Warfighting and Readiness             3               1            17        21
              H omeland Security                          3               4             0        7
              H uman Capital                              0               0             6        6
              Informat ion T echno logy Management        1               0             5        6
              Stream lined Acquisition Processes          1               2             3        6
              Financial Management                        3               1            10        14
              H ealth Care                                0               0             0        0
              Logistics                                   0               0             0        0
              Infrastructure and Environment              0               0             1        1
              O ther                                      0               0            27        27


                 Total R eports Issued                    11              8             69       88


                                                          Figure 4

                                 The Intelligence Community Inspectors and Auditors General continued
                                 to coordinate and share information to improve the effectiveness and
                                 efficiency of oversight of DoD intelligence activities. The Intelligence
                                 Community Inspectors General Forum serves as a mechanism for
                                 sharing information among Inspectors General whose duties include
                                 audit, evaluation, inspection, or investigation of programs and
                                 operations of Intelligence Community elements. The Information
                                 Assurance Working Group, established by the Intelligence Community
                                 Inspectors General Forum in 1999, monitors and evaluates the status of
                                 management policies and oversight of efforts to protect the Intelligence
                                 Community systems. Within DoD, the Joint Intelligence Oversight
                                 Coordination Group comprises senior representatives from the Office of
                                 the Secretary of Defense and Defense Intelligence Agency and Military
                                 Department audit, evaluation, and inspection organizations. The
                                 objectives of this group are to improve the effectiveness and efficiency
                                 of DoD oversight of intelligence activities by identifying areas needing
                                 more emphasis and deconflicting oversight programs.

                                 See the Classified Annex to this report for information on meetings of
                                 these groups.



                                                     28
                                                      Semiannual Report to the Congress




COMMENTS ON    Section 4(a) of the Inspector General Act requires the Inspector General
LEGISLATION/   “to review existing and proposed legislation and regulations relating to
TESTIMONY      the program and operations of [the Department of Defense]” and to
               make recommendations “concerning the impact of such legislation or
               regulations on the economy and efficiency in the administration of
               programs and operations administered or financed by [the Department]
               or the prevention and detection of fraud and abuse in such programs and
               operations.” The OIG routinely receives legislation for review that has
               been referred to the Department of Defense for comment.

               During the current reporting period, the following proposals
               recommended by the Inspector General were included in the Department
               of Defense FY 2005 legislative program and forwarded by the
               Department to Congress:

                    •   Provide authority to the Secretary of Defense to purchase items of
                        nominal value for recruitment purposes;

                    •   Revise the requirement for annual audits of payments,
                        obligations, reimbursements, and other uses of the Superfund by
                        requiring audits be conducted periodically as appropriate to
                        minimize the risk of mismanagement;

                    •   Repeal the requirement for periodic audits by the Inspector
                        General of undefinitized contractual actions and reports by the
                        Secretary of Defense;

                    •   Repeal the requirement for Inspector General reviews of waivers
                        granted regarding advisory and assistance services contracts for
                        weapons system test and evaluation; and

                    •   Repeal the requirement for quarterly reports on the promptness of
                        payments for District of Columbia water and sewer services.

               Additionally, the Office of the Inspector General provides information to
               Congress by participating in congressional hearings.

               On October 7, 2003, Mr. Shelton Young, Director, Readiness and
               Logistics Support Directorate, Office of the Deputy Inspector General
               for Auditing, testified before the House Government Reform
               Subcommit tee on Nati onal S ecuri ty, Emergi ng Th reats, and
               International Relations on DoD Controls over Chemical and Biological
               equipment and material. Mr. Young’s testimony summarized


                                   29
Semiannual Report to the Congress




                             information contained in an August 2003 interagency report that
                             examined security controls over biological agents. The interagency
                             report consolidated issues identified in 27 reports published by the
                             Inspectors General of the Departments of Agriculture, the Army,
                             Defense, Energy, Health and Human Services, and Veterans’ Affairs.
                             The reports examined management controls in the following areas:
                             physical security, personnel access, inventory accountability and
                             controls, contingency plans, registration with Centers for Disease
                             Control and Prevention, imports and exports of agents, safety and
                             security training, management oversight, and policies and procedures.
                             Mr. Young testified that corrective actions were initiated by the six
                             agencies on recommendations contained in the individual agency
                             reports.

                             The OIG also regularly reviews new and revised regulations proposed
                             by the Department of Defense. During this reporting period the OIG
                             reviewed 156 draft issuances or re-issuances of DoD directives,
                             instructions, manuals, and other policy guidance.




                                                30
Appendix A                                                                    Semiannual Report to the Congress


                            APPENDIX A*
     REPORTS ISSUED BY CENTRAL DOD INTERNAL AUDIT ORGANIZATIONS




  Excludes base level reports issued by the Air Force Audit Agency and memorandum reports and
  consulting reports issued by the Army Audit Agency. Includes evaluation reports issued by the OIG
  DoD.

  Copies of reports may be obtained from the appropriate issuing office by calling:

                  OIG DoD                                            Army Audit Agency
                  (703) 604-8937                                     (703) 681-9863

                  Naval Audit Service                                Air Force Audit Agency
                  (202) 433-5525                                     (703) 696-8027
                                                                     (703) 697-8014



             Summary of Number of Reports by Management Challenge Area
                          October 1, 2003 - March 31, 2004

                                               IG, DoD             Military Depts.                    Total
Acquisition                                        21                       41                          62
Human Capital                                       1                       15                          16
Financial Management                               23                       53                          76
Homeland Security                                   2                        6                           8
Information System Security                         5                        5                          10
Logistics                                           5                       35                          40
Defense Infrastructure                              0                        8                           8
Environment                                         1                        5                           6
Health Care                                         0                        3                           3
Information Technology                              2                        5                           7
Management
Joint Warfighting and Readiness                     2                       11                          13
Export Controls                                     1                        0                           1
Other                                               0                        1                           1
Total                                              63                       188                        251
 For information on intelligence-related reports, including those issued by other Defense agencies, refer to the
 classified annex to this report.
* Partially fulfills requirements of the Inspector General Act of 1978, as amended, 5 U.S.C.,
  Appendix 3, Section 5(a)(6) (See Appendix B).
                                                         31
Semiannual Report to the Congress                                                          Appendix A

                                    D-2004-0025 Accounting for          D-2004-0060 Acquisition of the
 ACQUISITION                        Pension Assets Under Advance        Joint Chemical Agent Detector
                                    Agreements with Northrop            (FOR OFFICIAL USE ONLY)
                                    Grumman and Litton Industries,      (3/30/04)
 OIG DOD                            Inc. (11/25/03)
 D-2004-0001 Disclosure of                                              Army Audit Agency
                                    D-2004-0035 Major Range and
 Contractor Data for the                                                A-2004-0024-IMO
                                    Test Facility Base (12/10/03)
 Development of Night Vision                                            Privatization of Family
 and Display Systems (10/3/03)      D-2004-0046 Acquisition of the      Housing--Reinvestment
                                    CH-47F Improved Cargo               Strategy, Fort Carson, Colorado
 D-2004-0006 Acquisition                                                (FOR OFFICIAL USE ONLY)
                                    Helicopter (1/21/04)
 Management of the Army's All                                           (10/16/03)
 Source Analysis System             D-2004-0047 Implementation
 (10 10 03)                         of the DoD Management               A-2004-0026-AMA The
                                    Control Program for Army            Army’s Purchase Card Program,
 D-2004-0008 Implementation                                             Headquarters, III Corps and Fort
                                    Acquisition Category II and III
 of Interoperability and                                                Hood, Fort Hood, Texas
                                    Programs (1/23/04)
 Information Assurance Policies                                         (10 21 03)
 for Acquisition of Army            D-2004-0049 Acquisition of the
 Systems (10/15/03)                 Airborne Mine Neutralization        A-2004-0030-AMA The
                                    System (CLASSIFIED) (2/3/04)        Army’s Purchase Card Program,
 D-2004-0011 Government                                                 U.S. Army Contracting Agency
 Source Inspections (10/15/03)      D-2004-0054 Allegations of the      Northern Region, Directorate of
                                    Defense Contract Management         Contracting, Fort Lewis,
 D-2004-0002 Selected Purchase                                          Washington (10/29/03)
                                    Agency's Performance In
 Card Transactions at
                                    Administering Selected Weapon
 Washington Headquarters                                                A-2004-0044-AMW Aviation
                                    Systems' Contracts (FOR
 Services and Civilian Personnel                                        Acquisition Planning Process
                                    OFFICIAL USE ONLY)
 Management Service (10/16/03)                                          (11/24/03)
                                    (2 23 04)
 D-2004-0012 Sole-Source                                                A-2004-0043-AMA The
                                    D-2004-0055 DoD Source
 Spare Parts Procured From an                                           Army’s Purchase Card Program,
                                    Approval Process for Service
 Exclusive Distributor (10/16/03)                                       Dwight D. Eisenhower Army
                                    and Sales, Inc., a Small Business
                                    Manufacturer (2/25/04)              Medical Center and Southeast
 D-2004-0015 Contracts for                                              Regional Contracting Office
 Professional, Administrative,                                          (11/25/03)
                                    D-2004-0052 Sole Source
 and Management Support
                                    Awards for Quick Disconnect
 Services (10/30/03)                                                    A-2004-0062-AMA The
                                    Silencers (2/26/04)
                                                                        Army’s Purchase Card Program,
 D-2004-0016 Purchase Card                                              Darnall Army Community
                                    D-2004-0056 Air Force
 Use at the Space and Naval                                             Hospital and U.S. Army Dental
                                    Satellite Control Network
 Warfare Systems Command,                                               Activity Fort Hood, Texas and
                                    Contract (3/10/04)
 Information Technology Center,                                         Great Plains Regional
 New Orleans, Louisiana             D-2004-0057 Contracts               Contracting Office Fort Sam
 (11 14 03)                         Awarded for the Coalition           Houston, Texas (11/28/03)
                                    Provisional Authority by the
 D-2004-0022 Development                                                A-2004-0063-AMA The
                                    Defense Contracting Command-
 Testing of Space Based Infrared                                        Army’s Purchase Card Program,
                                    Washington (3/18/04)
 System Mission-Critical                                                Office of the United States
 Software (11/24/03)                D-2004-0064 Acquisition of the      Property and Fiscal Officer,
                                    Boeing KC-767A Aerial Tanker        Texas Army National Guard
                                    Aircraft (3/29/04)                  (11/28/03)




                                                  32
Appendix A                                                            Semiannual Report to the Congress


A-2004-0050-IMH Contracting        A-2004-0131-FFP Government            N2004-0016 Independent
for Medical Goods and Services,    Purchase Card Management              Review of Streamlined Study on
Contract DADA10-02-F-0223,         Controls, U.S. Army                   the Information Technology
U.S. Army Medical Command,         Contracting Command, Korea,           Functions at Puget Sound Naval
Health Care Acquisition            Seoul, Korea (2/19/04)                Shipyard, Bremerton, WA
Activity (12/3/03)                                                       (12 22/03)
                                   A-2004-0156-IMU Operation
A-2004-0056-IMH Aircraft           Enduring Freedom—Logistics            N2004-0020 Independent
Maintenance and Repair             Civil Augmentation Program            Review of Naval Education and
Contract, Fort Bliss, Texas        (12/27/04)                            Training Command Base
(FOR OFFICIAL USE ONLY)                                                  Operating Support, Navy
(12/4/03)                          A-2004-0155-IMH Followup              Region South Texas, Corpus
                                   Issues, Linen Services Contract,      Christi, TX (1/09/04)
A-2004-0057-IMH Propriety of       Madigan Army Medical Center,
Fund Use--Aircraft Maintenance     Tacoma, Washington (2/6/04)           N2004-0022 Independent
and Repair Contract, Fort Bliss,                                         Review of Public Works
Texas (FOR OFFICIAL USE            A-2004-0157-IMH Contracting           Department and Fuel Storage
ONLY) (12/4/03)                    for Medical Goods and Services,       and Distribution at Naval Air
                                   Contract DADA10-01-C-0007,            Station Joint Reserve Base, New
A-2004-0089-IMT Contract           U.S. Army Medical Command             Orleans, LA (1/15/04)
Administration for the             (2/26/04)
Directorate of Public Works                                              N2004-0028 Obligation and
Contract, Fort Stewart, Georgia    A-2004-0168-AMA The                   Deobligation of Funds Related
(12/11/03)                         Army’s Purchase Card Program          to the Navy Marine Corps
                                   (2/27/04)                             Intranet Contract (2/13/04)
A-2004-0100-AMM Tactical
Software Maintenance, Office of    A-2004-0199-AMA Joint                 N2004-0030 Government
the Program Executive Officer      Simulation System (3/16/04)           Commercial Purchase Card
for Command, Control and                                                 Program at Selected Activities
Communications (Tactical),         A-2004-0213-IMT                       (2/26/04)
Office of the Program Executive    Performance of the Post-
Officer for Intelligence,          Competition Most Efficient            N2004-0031 Service Contracts
Electronic Warfare and Sensors     Organization for the Directorate      for Chartered Tugboats
(12/23/03)                         of Logistics and Engineering,         (3 16 04)
                                   Fort Jackson, South Carolina (3/
A-2004-0072-AMA Followup           17/04)                                N2004-0033 Independent
Audit of Integrated System                                               Review of The Public Works
Control (12/29/03)                 Naval Audit Service                   Department, United States
                                   N2004-0005 Cost Estimating            Naval Academy, Annapolis,
A-2004-0097-AMA The                Requirements and Procedures           MD (3/22/04)
Army’s Purchase Card Program,      for Department of the Navy
U.S. Army Infantry Center and                                            Air Force Audit Agency
                                   Acquisition Programs
Fort Benning, Fort Benning,        (10 23 03)                            F-2004-0001-FC1000 Base-
Georgia (12/31/03)                                                       Level Personnel Database
                                   N2004-0010 Independent                Management and Base Enlisted
A-2004-0111-AMA Army               Review of Base Support
Watercraft Program, Office of                                            Specialty Training, Royal Air
                                   Services, Naval Surface Warfare       Force Lakenheath and Royal Air
the Deputy Chief of Staff, G-4     Center, Carderock, MD
and Office of the Deputy Chief                                           Force Mildenhall
                                   (11 03 03)                            (A-76 Direct Conversion)
of Staff, G-8 (1/22/04)
                                                                         (10 6 03)
                                   N2004-0015 Digital Modular
A-2004-0146-IMO                    Radio Program Requirements
Privatization of Family Housing,                                         F-2004-0002-FC3000 Global
                                   (12/8/03)                             Hawk Unmanned Aerial Vehicle
Fort Meade, Maryland
(01 28 04)                                                               Program (10/21/03)



                                                  33
Semiannual Report to the Congress                                                        Appendix A


F-2004-0002-FC1000 Air              A-2004-0031-FFG                  N2004-0034 Reducing Lost
Combat Command,                     Independent Auditors’ Report,    Work Time Due to On-the-Job
Meteorological Services,            American Red Cross Opinion       Injuries at Navy and Marine
Langley AFB VA (A-76 Direct         (10/27/03)                       Corps Commands (3/26/04)
Conversion) (10/22/03)
                                    A-2004-0007-FFF Legal            Air Force Audit Agency
F-2004-0003-FC3000                  Review of Test Procedures,
Simplified Acquisition of Base      Audit of Military Training       F-2004-0001-FB1000 Civilian
Engineering Requirements            Service Support Pilot Test       Premium Payments (10/1/03)
Contract Management                 Distribution (12/9/03)           F-2004-0001-FD4000 Civilian
(10 27 03)                                                           Personnel Fill Actions
                                    A-2004-0049-IMU Allocation
F-2004-0003-FC1000 Edwards          of Army Lodging Fund             (12 19 03)
AFB Weather Services (A-76          Common Overhead Support,         F-2004-0002-FD4000
Direct Conversion) (12/4/03)        104th Area Support Group,        Correctional Custody (3/8/2004)
                                    Hanau, Germany (12/5/03)
F-2004-0004-FC3000 Deep
STARE Program Acquisition           A-2004-0085-FFF Military         FINANCIAL
Management (12/15/03)               Training Service Support-Pilot   MANAGEMENT
                                    Test, Fort Gordon, Georgia
F-2004-0004-FC1000 Base-            (12 18/03)
Level Personnel Database
Management and Base Enlisted                                         OIG DoD
                                    A-2004-0090-IMH Requested
Specialty Training, United          Followup— Morale, Welfare        D-2004-0009 Allegation
States Air Forces in Europe,        and Recreation Sustainment,      Concerning Controls over DoD
Ramstein Air Base, Germany          Restoration and Modernization,   Transit Subsidies Within the
(A-76 Direct Conversion)            U.S. Army Community and          National Capital Region
(1 22 04)                           Family Support Center            (10 14 03)
                                    (12 18 03)
F-2004-0005-FC1000 Wright-                                           D-2004-0010 Promptness of FY
Patterson AFB Personnel             A-2004-0092-FFF                  2004 First Quarter DoD
Systems Management (A-76            Training-Base and First-Term     Payments to the Department of
Direct Conversion) (1/22/04)        Soldier Attrition (1/8/04)       the Treasury for District of
                                                                     Columbia Water and Sewer
                                    Naval Audit Service              Services (10/15/03)
HUMAN CAPITAL
                                    N2004-0002 Restored Annual       D-2004-0004 Contracts
                                    Leave With Indefinite            Awaiting Financial Adjustments
OIG DOD                             Expiration Dates (10/09/03)      at the Defense Finance and
D-2004-065 DoD                                                       Accounting Service Columbus
                                    N2004-0019 Department of the     (10/24/03)
Implementation of the Voting        Navy Civilian Financial
Assistance Program (3/31/04)        Management Career Program        D-2004-0014 Defense Hotline
                                    (12/31/03)                       Allegation on the Sale of Tin
Army Audit Agency
                                                                     and the Removal of Asbestos at
A-2004-0001-IMH Financial           N2004-0025 Termination of        the Defense National Stockpile
Controls—Golf Course                Basic Allowance for Housing      Center (10/27/03)
Operations, Fort George G.          for Navy Personnel Residing in
Meade, Maryland (10/1/03)           Government Family Housing in     D-2004-0017 Reliability of
                                    the New London, CT and           Construction-in-Progress in the
A-2004-0011-FFF Family              Newport, RI Areas (2/09/04)      US Army Corps of Engineers,
Support for Reserve Component                                        Civil Works, Financial
Soldiers in Extended                                                 Statements (11/7/03)
Deployments (10/17/03)




                                                  34
Appendix A                                                          Semiannual Report to the Congress


D-2004-0023 Corps of              D-2004-0042 Controls Over            A-2004-0040-FFG Review of
Engineers Financial               Obligations at the National          the Army Management Control
Management System                 Geospatial-Intelligence Agency       Process (Fiscal Year 2003)
Accounting Processes              (CLASSIFIED) (1/14/04)               (10 29/03)
(11 18 03)
                                  D-2004-0043 Promptness of FY         A-2004-0023-AMW
D-2004-0028 Independent           2004 Second Quarter DoD              Depreciation Charges, Blue
Auditor's Report on the Army      Payments to the Department of        Grass Army Depot (10/30/03)
General Funds Fiscal Year 2003    the Treasury for District of
Principal Financial Statements    Columbia Water and Sewer             A-2004-0054-IMO Audit of the
(12/3/03)                         Services (1/15/04)                   Financial Statements for the
                                                                       Period Ended June 30, 2002 for
D-2004-0029 Independent           D-2004-0044 Subsidiary               the Ogden City Local
Auditor's Report on the Army      Ledgers at the U.S. Army Corps       Redevelopment Authority No-
Working Capital Fund Fiscal       of Engineers (1/16/04)               Cost Economic Development
Year 2003 Principal Financial                                          Conveyance (FOR OFFICIAL
Statements (12/3/03)              D-2004-0045 Coalition Support        USE ONLY) (11/10/03)
                                  Funds (U) (CLASSIFIED)
D-2004-0030 Independent           (1 16/04)                            A-2004-0055-AMW Army
Auditor's Report on the                                                Working Capital Fund
Department of the Navy General    D-2004-0051 DoD Payroll              Followup, Statement of
Fund Fiscal Year 2003 Principal   Withholding Data For FY 2003         Budgetary Resources Journal
Financial Statements (12/3/03)    (2/6/04)                             Vouchers, Defense Finance and
                                                                       Accounting Service (12/2/03)
D-2004-0031 Independent           D-2004-0053 Defense Threat
Auditor's Report on the           Reduction Agency Relocation          A-2004-0075-FFG Validation
Department of the Navy            Costs (2/19/04)                      of Property Book and Unit
Working Capital Fund Fiscal                                            Supply Enhanced System
Year 2003 Principal Financial     D-2004-0058 Early Payment of         (12 5 03)
Statements (12/3/03)              Invoices by the Defense Finance
                                  and Accounting Service               A-2004-0081-IMT Pay and
D-2004-0032 Independent           Columbus (3/12/04)                   Travel Operations,
Auditor's Report on the U.S.                                           U.S. Property and Fiscal Office
Army Corps of Engineers, Civil    D-2004-0059 Assets                   for California (12/10/03)
Works, Fiscal Year 2003           Depreciation Reported on the
Principal Financial Statements    U.S. Army Corps of Engineers         A-2004-0082-IMT Financial
(12/3/03)                         FY 2002 Financial Statements         and Accounting Operations,
                                  (3/16/04)                            U.S. Property and Fiscal Office
D-2004-0026 Independent                                                for California (12/10/03)
Auditor's Report on the Air       D-2004-0063 Controls Over
Force General Funds Fiscal        U.S. Army Corps of Engineers         A-2004-0087-IMH Army
Year 2003 Principal Financial     Buildings and Other Structures       Lodging Overhead Costs, Fort
Statements (12/4/03               (3/26/04)                            Sam Houston, Texas (12/18/03)

D-2004-0027 Independent           Army Audit Agency                    A-2004-0088-IMH Army
Auditor's Report on the Air       A-2004-0033-IMU                      Lodging Overhead Costs, Fort
Force Working Capital Fund        Management of Resources,             Gordon, Georgia (12/18/03)
Fiscal Year 2003 Principal        Army Forces–Turkey (10/23/03)
Financial Statements (12/4/03)                                         A-2004-0103-AML Audit of the
                                  A-2004-0006-FFG General              Recapitalization Program
D-2004-0036 Independent           Fund Followup Issues                 Efficiency (12/18/03)
Auditor's Report on Department    (10 29 03)
of Defense, Fiscal Year 2003                                           A-2004-0076-IMH Controls
Principal Financial Statements                                         Over the Army and Air Force
(12/10/03)                                                             Exchange Service (12/19/03)



                                                35
Semiannual Report to the Congress                                                        Appendix A


A-2004-0105-FFG Review of           A-2004-0150-IMO DOD              A-2004-0209-FFF
the Army Management Control         Support to the 2002 Olympic      Management Controls Over
Process (Fiscal Year 2003),         and Paralympic Winter Games      Travel, Leave, and Pay
Deputy Chief of Staff, G-1          (2/20/04)                        Transactions, U.S. Army
(1 12/04)                                                            Reserve, 99th Regional
                                    A-2004-0171-FFG U.S. Debit       Readiness Command (3/24/04)
A-2004-0091-FFF Followup            Card Pilot Program,
Audit of Funding of Aviation        U.S. Southern Command            A-2004-0153-AMW
Training, U.S. Army Aviation        Miami, Florida (2/26/04)         Depreciation Charges, U.S.
Center and Fort Rucker                                               Army Materiel Command
(1 15 04)                           A-2004-0187-IMH Followup         (03 31/04)
                                    Audit of Management Controls
A-2004-0118-FFG Review of           for Reimbursable Orders,         Naval Audit Service
The Army Management Control         U.S. Army Garrison, Fort Sam
Process (Fiscal Year 2003),         Houston, Texas (2/26/04)         N2004-0003 Naval Audit
Office of the Administrative                                         Service Opinion on Proposed
Assistant to the Secretary of the   A-2004-0192-AMW Followup         Fiscal Year 2003 Annual
Army, Headquarters, DA              Review of Consigned Inventory,   Statement of Assurance
(1 21 04)                           Army Working Capital Fund        (10 15 03)
                                    (3 11/04)
A-2004-0127-IMU Allocation                                           N2004-0018 Reimbursable
of Army Lodging Fund                A-2004-0190-AMA                  Funding of Core Supervisor of
Common Overhead Support             Realignment Phase 2 Field        Shipbuilding, Conversion, and
Costs, 26th Area Support Group,     Operating Agencies, Army         Repair Functions (12/30/03)
Heidelberg, Germany (1/21/04)       National Guard Readiness
                                    Center (3/12/04)                 N2004-0024 Spare Parts for the
A-2004-0143-IMH Army                                                 Department of the Navy Flying
Lodging Overhead Costs, Fort        A-2004-0210-IMO No-Cost          Hour Program (1/30/04)
Leonard Wood, Missouri              Economic Development
                                    Conveyance Financial             N2004-0032 The Department of
(1 21 04)                                                            the Navy’s Execution of
                                    Statements, Massachusetts
A-2004-0119-FFG Review of           Development Finance Agency,      Military Construction, Navy
The Army Management Control         Devens, Massachusetts (FOR       Appropriation 17x1205
Process (Fiscal Year 2003),         OFFICIAL USE ONLY)               (3 16 04)
Deputy Chief of Staff, G-3          (3 12 04)
                                                                     Air Force Audit Agency
(1 22/04)
                                    A-2004-0207-IMT Distribution     F-2004-0001-FB3000 Selected
A-2004-0149-FFG Review of           and Allocation of Funds,         Aspects of Unliquidated
the Army Management Control         U.S. Army White Sands Missile    Obligations (10/1/03)
Process (Fiscal Year 2003), U.S.    Range, New Mexico (3/16/04)
Army Infantry Center, Fort                                           F-2004-0001-FC3000
Benning, Georgia (2/4/04)           A-2004-0196-AML Training         Acquisition Management Using
                                    Resource Model Efficiencies      Military Interdepartmental
A-2004-0165-FFG Review of           Process (3/17/04)                Purchase Requests (10/1/03)
the Army Management Control
Process (Fiscal Year 2003), U.S.    A-2004-0212-FFB Education        F-2004-0002-FB3000 Air
Army Signal Center, Fort            Services Obligation Practices,   Force Direct Financing Provided
Gordon, Georgia (2/10/04)           Colorado Army National Guard     by The Government of Japan
                                    (3/18/04)                        (10/21/03)
A-2004-0115-FFB Review of
the Army Management Control         A-2004-0104-AML Audit of         F-2004-0003-FB3000 Selected
Process (Fiscal Year 2002),         the Direct Support Plus          Aspects of Air Force Liability
Colorado Army National Guard        Conversion Program Efficiency    Reporting (10/22/03)
(2/19/04)                           (3/22/04)




                                                  36
Appendix A                                                          Semiannual Report to the Congress


F-2004-0004-FB3000
Memorandum Report, Air Force       HOMELAND SECURITY                   INFORMATION SYSTEM
Working Capital Fund, Materiel                                         SECURITY
Support Division Overhead
Record Balances (11/3/03)          OIG DoD
                                   D-2004-0039 Cooperative             OIG DoD
F-2004-0005-FB3000 Air             Threat Reduction Construction       D-2004-0013 Security Controls
Force Working Capital Fund         Projects (1/12/04)                  Over Patient Information at
Supply Management Activity
                                                                       Selected Military Treatment
Group Capital Purchase             D-2004-0050 Management              Facilities (FOR OFFICIAL USE
Program (11/3/03)                  Structure of the Cooperative        ONLY) (10/14/03)
                                   Threat Reduction Program
F-2004-0006-FB3000                 (2 5 04)                            D-2004-0019 Report on
Accounting for Unclassified
                                                                       Defense Logistics Agency
Off-Line Supply Accounts           Army Audit Agency                   Information Assurance
(11 10/03)
                                   A-2004-0093-IME Installation        Investment Initiative (11/12/03)
F-2004-0002-FD2000 Controls        Preparedness for Weapons of
                                   Mass Destruction (12/16/03)         D-2004-0038 Information
Over the Army and Air Force
                                                                       Assurance Challenges - A
Exchange Service (12/19/03)
                                   A-2004-0133-FFC Security of         Summary of Results Reported
F-2004-0002-FB1000 Air             Civil Works Water Resources         from August 1, 2002 through
Force Receiving Report             Infrastructure, U.S. Army           July 31, 2003 (FOR OFFICIAL
Procedures (1/26/04)               Engineer District, Little Rock      USE ONLY) (12/22/03)
                                   (1/12/04)
F-2004-0001-FB2000                                                     D-2004-0040 Information
Automated Budget Interactive       Naval Audit Service                 Security Controls at Selected
Data Environment System                                                TRICARE Contractor Facilities
                                   N2004-0004 Department of the        (FOR OFFICIAL USE ONLY)
Funds Management System
                                   Navy Antiterrorism Risk             (12/31/03)
Controls (2/2/04)
                                   Assessment Management
F-2004-0002-FB2000 Combat          Approach for Navy Region            D-2004-0041 The Security of
Ammunition System 1.0              Southwest (FOR OFFICIAL             the Army Corps of Engineers
Controls and Accounting            USE ONLY) (10/20/03)                Enterprise Infrastructure
Conformance (2/17/04)                                                  Services Wide-Area Network
                                   N2004-0006 Emergency Action         (FOR OFFICIAL USE ONLY)
F-2004-0006-FC1000 Follow-         Plans at Naval Security Group       (12/26/03)
up Audit, Foreign Military Sales   Facilities (CLASSIFIED) (10/
Travel Requirements (2/17/04)      23/03)                              Army Audit Agency
                                   Air Force Audit Agency              A-2004-0014-AMA G-2
F-2004-0003-FD2000 Air                                                 Foreign Intelligence Support to
Force Services Information,        F-2004-0003-FB4000 Air              Acquisition (10/31/03)
Tickets, and Travel Office         Education and Training
Control of Entertainment           Command Information Security        A-2004-0045-AMI Intelligence
Tickets (2/17/04)                  Program and Practices (FOR          Contingency Funds, Forces
                                   OFFICIAL USE ONLY)                  Command (12/12/03)
F-2004-0003-FB1000 Follow-         (1 8 04)
up Audit, Proportional Per Diem                                        A-2004-0101-AMI Information
Payments (3/8/04)                  F-2004-0004-FB4000 Air              Systems Security, U.S. Army
                                   National Guard Information          Special Operations Command,
F-2004-0003-FB2000 Financial       Security Program and Practices      Fort Bragg, North Carolina
Information Resource System        (FOR OFFICIAL USE ONLY)             (FOR OFFICIAL USE ONLY)
Controls (3/15/04)                 (2/17/04)                           (2/27/04)




                                                 37
Semiannual Report to the Congress                                                           Appendix A


A-2004-0170-AMI Information          Army Audit Agency                  A-2004-0080-AML Audit of
Systems Security in the Army                                            Reporting Combat/Tactical
Special Operations Forces            A-2004-0013-IMU Audit of           Systems Usage Data, Office of
Community, Office of the             Operation Enduring Freedom—        the Deputy Chief of Staff, G-4
Secretary of the Army (FOR           Class IX Aviation Spare Parts      (12/8/03)
OFFICIAL USE ONLY)                   (10/7/03)
(2 27 04)                                                               A-2004-0066-IMU Operation
                                     A-2004-0003-FFP Operational        Enduring Freedom—
                                     Projects, Project PLU (Inland
Air Force Audit Agency                                                  Management and Use of
                                     Petroleum Distribution System),    Shipping Containers (12/9/03)
F-2004-0007-FB3000 General           Eighth U.S. Army (10/8/03)
Accounting and Finance System                                           A-2004-0078-AML Reporting
(GAFS/BQ) Access Controls            A-2004-0004-FFP Operational        Combat and Tactical Systems
(12/16/03)                           Projects, Projects PBO/PCH         Usage, U.S. Army Forces
                                     (Hot/Cold Weather Clothing),       Command, Fort McPherson,
                                     Eighth U.S. Army (10/8/03)         Georgia (12/19/03)
LOGISTICS
                                     A-2004-0010-FFG Asset              A-2004-0109-AMW Aviation
                                     Visibility of Apache Helicopters   Spare Parts Requirements,
OIG DoD                              A/D-Models During                  Supply Control Studies, U.S.
                                     Conversions, U.S. Army             Army Aviation and Missile
D-2004-0018 Defense Logistics
                                     Aviation and Missile Command       Command (12/31/03)
Agency Processing of Other
                                     (10/23/03)
Nonrecurring Requirements
(11 7/03)                                                               A-2004-0125-AMW Aviation
                                     A-2004-0052-FFP Operational        Tracked Components, U.S.
                                     Projects, Projects PLF, PCJ, and   Army Aviation and Missile
D-2004-0021 Effectiveness of
                                     PF7, (Receiving, Staging,          Command (1/28/04)
Maintenance Work Performed
                                     Onward Movement and
Under Contract FA4452-01-C-
                                     Integration; Containerized         A-2004-0141-AMM
0001 at Andrews Air Force Base
                                     Chapels; and Collective Support    Sustainment Planning for
(11/19/03)
                                     Systems), Eighth U.S. Army         Maintenance Support –
D-2004-0024 Defense Logistics        (11/19/03)                         Comanche (1/28/04)
Agency Cost to Maintain
                                     A-2004-0034-IMU                    A-2004-0158-AMM
Inactive National Stock Number
                                     Consolidation of Maintenance       Specialized Repair Authority,
Items (11/19/03)
                                     Activities, U.S. Army              U.S. Army Communications-
D-2004-0037 Defense                  Installation Management            Electronics Command (2/4/04)
Reutilization and Marketing          Agency, Europe Region
Services Commercial Venture          (12 5 03)                          A-2004-0147-AMM
Contracts for Privatization of the                                      Specialized Repair Authority,
                                     A-2004-0053-IMU Operation          U.S. Army Training and
DoD Surplus Sales Program
                                     Enduring Freedom—                  Doctrine Command (2/9/04)
(FOR OFFICIAL USE ONLY)
                                     Management of Class I Supplies
(12/30/03)
                                     (12/5/03)                          A-2004-0148-AMM
D-2004-0048 Allegations                                                 Specialized Repair Authority,
                                     A-2004-0079-AML Audit of           U.S. Army Forces Command
Concerning Management
                                     Reporting Combat/Tactical          (2 13/04)
Practices at Defense
                                     Systems Usage Data, Office of
Distribution Depot
                                     the Deputy Assistant Secretary     A-2004-0162-AMW Aviation
Susquehanna, Pennsylvania
                                     of the Army (Cost and              Spare Parts Requirements,
(1 26/04)
                                     Economics) (12/8/03)               Compressor Blade, U.S. Army
                                                                        Aviation and Missile Command
                                                                        (2/20/04)




                                                    38
Appendix A                                                            Semiannual Report to the Congress


A-2004-0163-AMM                     N2004-0014 Inventory                 N2004-0021 Followup Audit of
Specialized Repair Authority,       Requirements Determination           Navy Management Heavy
U.S. Army Aviation and Missile      Process for the Marine Corps 5-      Equipment (1/12/04)
Command (2/20/04)                   Ton Truck (12/08/03)
                                                                         Air Force Audit Agency
A-2004-0164-AMM                     N2004-0029 Aircraft Engine/
Specialized Repair Authority,       Module Containers (2/18/04)          F-2004-0001-FD1000 Fiscal
U.S. Army Tank-Automotive                                                Year 2004 Military Construction
and Armaments Command               Air Force Audit Agency               Projects (11/20/03)
(2 20/04)                           F-2004-0001-FC4000 Credit            F-2004-0002-FD1000 Energy
A-2004-0172-AMW Selected            Returns Management (10/22/03)        Management Program
Stock Funded Depot Level                                                 (12 15 03)
                                    F-2004-0002-FC4000 Standard
Reparable Requisitions, Office      Base Supply System Pricing           F-2004-0001-FB4000 2005
of the Project Manager, Apache      Data Accuracy (10/23/03)             Base Realignment and Closure -
Attack Helicopter (2/27/04)                                              Air Force Internal Control Plan
                                    F-2004-0003-FC4000                   (FOR OFFICIAL USE ONLY)
A-2004-0183-AMA                     Propulsion Requirements
Generators, Office of the Project                                        (12/29/03)
                                    System Computation Accuracy
Manager Mobile Electric Power       (11/12/03)                           F-2004-0003-FD1000 Residual
(3/12/04)                                                                Value of Facilities at Overseas
                                    F-2004-0001-FC2000 Follow-           Bases (1/7/04)
A-2004-0179-AMM                     up Audit, Aircraft Maintenance
Specialized Repair Authority        Training Within Active Duty
(3 19/04)                           Units (12/22/03)                     ENVIRONMENT
A-2004-0215-IMU Nontactical         F-2004-0002-FC2000 C-130
Vehicle Damages, U.S. Army          Aircraft Engine (T56)                OIG DoD
Installation Management             Maintenance Support
Agency, Europe Region                                                    D-2004-0034 Defense Hotline
                                    Operations in United States Air
(3 19 04)                                                                Allegations Regarding the
                                    Forces in Europe (3/9/04)
                                                                         Environmental Compliance
A-2004-0188-AMM Followup                                                 Assessment Process at U.S.
on Process for Determining                                               Army Corps of Engineers,
                                    DEFENSE
Source of Depot Level                                                    Portland District (12/4/03)
Maintenance (3/22/04)               INFRASTRUCTURE
                                                                         Army Audit Agency
A-2004-0223-FFG Asset
Visibility of Bradley Vehicles      Army Audit Agency                    A-2004-0005-IME
During Conversion Programs,         A-2004-0068-FFP Lessons              Management of Active Army
U.S. Army Tank-Automotive           Learned from an Energy               Reactor Facilities, U.S. Army
and Armaments Command               Savings Performance Contract,        Test and Evaluation Command
(3 30/04)                           U.S. Army Garrison, Alaska           (10/3/03)
                                    (12/10/03)                           A-2004-0069-FFC Permit
Naval Audit Service
                                    A-2004-0218-IMO Recycling            Process for Central and South
N2004-0001 Navy Input to the                                             Florida, U.S. Army Corps of
                                    Operations, Fort Hood, Texas
Joint Strategic Capabilities Plan                                        Engineers, Jacksonville District
                                    (3/31/04)
(CLASSIFIED) (10/02/03)                                                  (12/3/03)
N2004-0009 Inventory                Naval Audit Service
Requirements Determination          N2004-0011 Inventory
Process for F-14 Program            Requirements Determination
(10 29/03)                          Process for Decommissioning
                                    Ships (11/07/03)



                                                  39
Semiannual Report to the Congress                                                          Appendix A


A-2004-0083-FFC Sponsor             D-2004-0033 Terrorism             Army Audit Agency
Contributions, Central and          Information Awareness Program
South Florida Projects, U.S.        (12/12/03)                        A-2004-0067-AML Audit of
Army Corps of Engineers, U.S.                                         Operational Project Stocks –
Army Engineer District,             Army Audit Agency                 Phase II, U.S. Army Forces
Jacksonville (12/17/03)                                               Command and Third U.S. Army
                                    A-2004-0022-AMA Followup          (11/24/03)
A-2004-0137-IMO Military            Audit of Rechargeable Batteries
Construction, National              for Communications and            A-2004-0077-FFF Validation
Environmental Policy Act            Electronics Systems (10/31/03)    of Material Weakness –
Administrative Costs, Office of                                       Automated Mobilization
                                    A-2004-0217-FFB Army              System, National Guard Bureau
the Assistant Chief of Staff for    Knowledge Management Goal 1
Installation Management                                               (12/16/03)
                                    Resource Control Process for
(1 23 04)                           Non-Programmed Information        A-2004-0073-FFF Operational
A-2004-0173-IME Land Use            Technology Investments, Chief     Facility Requirements Rules
Controls and Monitoring at          Information Officer/G-6           (1 15/04)
Formerly Used Defense Sites,        (3 22 04)
                                                                      A-2004-0108-AML
U.S. Army Corps of Engineers
                                    Naval Audit Service               Operational Project Stocks
Baltimore District (2/19/04)                                          Phase II, Headquarters,
                                    N2004-0008 Information            Department of the Army
                                    Technology Certification and      (2 12 04)
HEALTH CARE                         Accreditation Process
                                    (10 28 03)                        Naval Audit Service
Army Audit Agency                   N2004-0012 Navy Marine            N2004-0007 Navy Joint
A-2004-0002-IMH Followup            Corps Intranet Implementation     Quarterly Readiness Review
Issues, Joint Support Agreement     (FOR OFFICIAL USE ONLY)           Execution and Support
for Healthcare Services, William    (11/13/03)                        (10 27 03)
Beaumont Army Medical
Center, El Paso, Texas (10/1/03)    Air Force Audit Agency            N2004-0013 Verification of the
                                                                      Reliability and Validity of Navy
                                    F-2004-0002-FB4000 Cellular       Integrated Training Resources
Air Force Audit Agency              Telephone Management              Administration System Data
F-2004-0001-FD2000 Primary          (12 29 03)                        (FOR OFFICIAL USE ONLY)
Care Managers' Productivity                                           (11/13/03)
(12/4/03)
                                    JOINT WARFIGHTING                 N2004-0017 Readiness
F-2004-0003-FD4000                  AND READINESS                     Reporting of the Navy Fleet
Environmental, Safety, and                                            Hospital Program (12/30/03)
Occupational Health Program
Costs (3/15/04)                     OIG DoD                           N2004-0026 Management of
                                    D-2004-0003 Decontamination       Department of the Navy
                                    Operation Preparedness of         Monthly Manpower Readiness
INFORMATION                         Continental U.S.-Based Navy       Reports (2/11/04)
TECHNOLOGY                          and Air Force Units (U)
                                                                      N2004-0027 Supervisor of
MANAGEMENT                          (CLASSIFIED) (10/8/03)
                                                                      Shipbuilding, Conversion and
                                    D-2004-0007 Force Protection      Repair Manning Requirements
OIG DoD                             in the Pacific Theater (U)        (2/12/04)
                                    (CLASSIFIED) (10/14/03)
D-2004-0020 Allegations
Concerning Improprieties in
Awarding National Guard
Contracts (11/18/03)



                                                  40
Appendix A                                                    Semiannual Report to the Congress


Air Force Audit Agency
                              EXPORT CONTROLS                    OTHER
F-2004-0001-FD3000 Air and
Space Expeditionary Force
Readiness Reporting (U)       OIG DoD                            Army Audit Agency
(CLASSIFIED) (11/5/03)
                              D-2004-0061 Export-                A-2004-0202-AMA Interceptor
F-2004-0002-FD3000 Air        Controlled Technology at           Body Armor, Office of the
Reserve Component Personnel   Contractor, University, and        Inspector General (3/17/04)
Mobilization and              Federally Funded Research and
Demobilization (11/25/03)     Development Center Facilities
                              (3/25/04)




                                           41
Appendix B                                                              Semiannual Report to the Congress



                                    APPENDIX B*
                     OIG DOD AUDIT REPORTS ISSUED CONTAINING
                    QUANTIFIABLE POTENTIAL MONETARY BENEFITS



                                                                              Potential Monetary
                                                                                   Benefits

                     Audit Reports Issued                                                     Funds Put
                                                                          Disallowed
                                                                                               to Better
                                                                            Costs1
                                                                                                  Use
D-2004-002 Selected Purchase Card Transactions at Washington                   N/A               $1,741,816
Headquarters Service and Civilian Personnel Management Service
(10/16/03)
D-2004-012 Sole-Source Spare Parts Procured From an Exclusive                  N/A               22,200,000
Distributor (10/16/03)
D-2004-016 Purchase Card Use at the Space and Naval Warfare                    N/A                    90,000
Systems Command, Information Technology Center, New Orleans,
Louisiana (11/14/03)
D-2004-021 Effectiveness of Maintenance Work Performed Under                   N/A                    18,603
Contract FA4452-01-C-0001 at Andrews Air Force Base (11/19/03)
D-2004-025 Accounting for Pension Assets Under Advance                         N/A               13,062,022
Agreements with Northrop Grumman and Litton Industries, Inc.
(12/30/03)
D-2004-037 Defense Reutilization and Marketing Services                        N/A               29,030,000
Commercial Venture Contracts for Privatization of the DoD Surplus
Sales Program (12/30/03)
D-2004-057 Contracts Awarded for the Coalition Provisional                     N/A                  634,834
Authority by the Defense Contracting Command-Washington
(3/18/04)
D-2004-058 Early Payment of Invoices by the Defense Finance and                N/A                 1,500,000
Accounting Service Columbus (3/12/04)
Totals                                                                                          $68,277,275
1There
         were no OIG audit reports during the period involving disallowed costs.


* Partially fulfills the requirement of the Inspector General Act of 1978, as amended, 5 U.S.C., Appendix 3,
Section 5(a)(6) (See Appendix A).




                                                     42
Semiannual Report to the Congress                                                                       Appendix C


                                             APPENDIX C*
                                         FOLLOWUP ACTIVITIES



       DECISION STATUS OF INSPECTOR GENERAL ISSUED REPORTS WITH
           RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE
                              ($ in thousands)

                                                                                                    Funds Put
                                    Status                                          Number           to Better
                                                                                                       Use1
 A. For which no management decision had been made by the                                 26        $6,974,200
         beginning of the reporting period.
 B. Which were issued during the reporting period.                                        64             68,278
       Subtotals (A+B)                                                                    90         7,042,478
 C. For which a management decision was made during the reporting                         67         6,998,251
         period.
       (i)    dollar value of recommendations that were agreed to by
              management
              - based on proposed management action                                                      20,509
              - based on proposed legislative action
       (ii)   dollar value of recommendations that were not agreed to by                             6,977,7422
              management
 D. For which no management decision has been made by the end of                          23             44,227
         the reporting period.

       Reports for which no management decision was made within 6
             months of issue (as of March 31, 2004).                                       13                     0
 1There
         were no OIG DoD audit reports issued during the period involving “disallowed costs.”
 2On  one audit report with total of potential funds put to better use of $6,900 million, management has agreed
  to take the recommended actions, but the amount of agreed monetary benefits cannot be determined until
  those actionas are completed.
 3OIG DoD Report No. D-2003-096, “Protection of the European Theater’s Nuclear Command and Control
  System and Capabilities Against Radio Frequency Threats,” issued June 6, 2003, had no management
  decision as of March 31, 2004, but was decided April 1, 2004.

*Fulfills requirements of the Inspector General Act of 1978, as amended, 5 U.S.C., Appendix 3,
 Section 5(a)(8)(9)&(10).




                                                         43
Appendix D                                                                    Semiannual Report to the Congress

                                           APPENDIX D
                             CONTRACT AUDIT REPORTS ISSUED1
                                          ($ in millions)
                             October 1, 2003 through March 31, 2004



                                    Reports              Amounts             Questioned           Funds Put to
     Type of Audit2
                                    Issued               Examined              Costs3              Better Use
 Incurred Costs, Ops                     11,733             $53,704.7               $321.1                $48.64
 Audits, Special Audits
 Forward Pricing                          4,789             $83,933.0                     --           $3,359.55
 Proposals
 Cost Accounting                          1,028                $121.2                $12.7                      --
 Standards
 Defective Pricing                          203               (Note 6)               $24.7                      --
 Totals                                  17,753           $137,758.9                $358.5              $3,408.1
 1This   schedule represents Defense Contract Audit Agency (DCAA) contract audit reports issued during the
   6 months ended March 31, 2004. Both “Questioned Costs” and “Funds Put to Better Use” represent potential
   cost savings. Because of limited time between availability of management information system data and
   legislative reporting requirements, there is minimal opportunity for the DCAA to verify the accuracy of
   reported data. Accordingly, submitted data is subject to change based on subsequent DCAA authentication.
 2This schedule represents audits perfomed by DCAA summarized into four principal categories, which are

   defined as:
        Incurred Costs - Audits of direct and indirect costs charged to Government contracts to determine that the
   costs are reasonable, allocable, and allowable as prescribed by the Federal Acquisition Regulation, Defense
   Federal Acquisition Regulation, and provisions of the contract. Also included under incurred cost audits are
   Operations Audits, which evaluate a contractor’s operations and management practices to identify
   opportunities for increased efficiency and economy; and Special Audits, which include audits of terminations
   and claims.
          Forward Pricing Proposals - Audits of estimated future costs of proposed contract prices, proposed
  contract change orders, costs for redeterminable fixed-price contracts, and costs incurred but not yet covered
  by definitized contracts.
         Cost Accounting Standards - A review of a contractor’s cost impact statement required due to changes to
  disclosed practices, failure to consistently follow a disclosed or established cost accounting practice, or
  noncompliance with a CAS regulation.
        Defective Pricing - A review to determine whether contracts are based on current, complete, and accurate
   cost or pricing data (the Truth in Negotiations Act).
 3Questioned costs represent costs that DCAA has questioned because they do not comply with rules,

   regulations, laws, and/or contractual terms.
 4Represents recommendations associated with Operations Audits where DCAA has presented to a contractor

   that funds could be used more effectively if management took action to implement cost reduction
   recommendations.
 5
   Represents potential cost reductions that may be realized during contract negotiations.
 6Defective pricing dollars examined are not reported because the original value was included in the audits

   associated with the original forward pricing proposals.




                                                         44
Semiannual Report to the Congress                                                                          Appendix E


                                 APPENDIX E
      STATUS OF ACTION ON SIGNIFICANT POST-AWARD CONTRACT AUDITS1
                                ($ in millions)
                        Period ending March 31, 2004



                                    Number of                  Costs
                                     Reports                 Questioned                 Disallowed Costs6

Open Reports:

     Within Guidelines2                       262                     $309.3                                  N/A7

     Overage, greater than 6                  282                     $720.1                                   N/A
     months3
     Overage, greater than                    245                      $511.8                                  N/A
     12 months4

     In Litigation5                           187                   $2,253.8                                   N/A

Total Open Reports                            976                   $3,795.0                                   N/A
Closed Reports                                287                     $263.3                     $111.1 (42.20%)
All Reports                                 1,263                   $4,058.3                                   N/A
 1This schedule represents the status of Defense Contract Audit Agency reports on incurred costs, defective pricing,
  and noncompliance with the Cost Accounting Standards as reported by the Army, Navy, Air Force, Defense
  Contract Management Agency, and TRICARE. Contract audit followup is reported in accordance with DoD
  Directive 7640.2, “Policy for Followup on Contract Audit Reports.” Because of limited time between availability of
  the data and reporting requirements, there is minimal opportunity to verify the accuracy of the reported data.
 2These reports are being processed within the time frames established by OMB Circular A-50, Audit Followup, and
  DoD Directive 7640.2.
 3
   OMB Circular A-50 requires that audit reports be resolved (the contracting officer decides on a course of action)
  within 6 months after report issuance.
 4
   DoD Directive 7640.2 states that audit reports are overage if not dispositioned within 12 months from date of
  issuance. Disposition is achieved when the contractor implements audit recommendations, the contracting officer
  negotiates a settlement with contractor, or the report is superseded.
 5
   Of the 187 reports in litigation, 62 are under criminal investigation.
 6
   Disallowed costs are costs sustained by the contracting officer in negotiations with contractors.
 7
   N/A (not applicable)




                                                           45
                                                                 Semiannual Report to the Congress




              Waivers of Advisory and Assistance Service Contracts

A review is made of each waiver granted by the Department for advisory and assistance
services contracts related to testing support. This review is required by Section 802, Defense
Authorization Act for Fiscal Year 1990.

The Department made no waivers during the period and therrefore, no reviews were made by
the OIG.




                                               46
If you suspect Fraud, Waste, Abuse, or Mismanagement
   in the Department of Defense, please contact us at:

                      Hotline@dodig.osd.mil

                                    or

                   www.dodig.osd.mil/hotline

                                 or call:

                            800-424-9098




 The Hotline is available 24 hours per day. The caller can remain anonymous.
              If you prefer, you may send written complaints to:

                          The Defense Hotline
                             The Pentagon
                       Washington, D.C. 20301-1900
